              ‫‪N‬‬‫‪S‬‬‫‪PECTOR G‬‬
           ‫‪L‬‬ ‫‪I‬‬                  ‫‪EN‬‬
          ‫ﺯی ﺍﻓ ‪A‬‬‫ﺎ‬‫ﺳ‬‫ﺯ‬‫ﺎ‬‫ﺑ‬ ‫ی‬‫ﺍ‬‫ﺮ‬‫ﺑ‬ ‫ﺎﺹ‬
                              ‫ﺧ‬
   ‫‪CI‬‬


               ‫ﻐﺎﻧ‬




                                                        ‫‪ER‬‬
                                             ‫ﺲ‬
‫‪SPE‬‬

         ‫ﺴ‬
      ‫ﺘﺎﻥ‬




                                                          ‫‪AL‬‬
                                              ‫ﻣﻔﺘ‬
‫‪AFG‬‬




                                                           ‫‪N‬‬
                                                         ‫‪IO‬‬
      ‫ﺵ‬




                                                    ‫ﺩ‬
           ‫یﻣ‬
                                              ‫ﺍﻓﻐ‬

                                                    ‫ﺎ‬
          ‫ﻔﺘ‬
 ‫‪HA‬‬




                                               ‫ﻧﺴ‬
                                                        ‫‪CT‬‬
      ‫‪N‬‬                                  ‫ﻥ‬ ‫ﺎ‬ ‫ﺘ‬
          ‫‪IS‬‬          ‫ﺩ ﺑ ﻴﺎ ﺭ ﻏ ﻮ ﻧ ﯽ‬              ‫‪U‬‬
               ‫‪TA‬‬                               ‫‪T‬‬ ‫‪R‬‬
                  ‫‪N‬‬   ‫‪REC ONS‬‬
                         MESSAGE FROM THE SPECIAL INSPECTOR GENERAL
                              FOR AFGHANISTAN RECONSTRUCTION
         I am pleased to submit to the U.S. Congress this third quarterly and ﬁrst semiannual report of the
         Ofﬁce of the Special Inspector General for Afghanistan Reconstruction.


         Since this ofﬁce issued its last Quarterly Report to Congress, the United States Government conducted a
         thorough assessment of U.S. policy towards Afghanistan and Pakistan. At the end of March 2009, President
         Barack Obama announced a new strategy aimed at disrupting, dismantling, and defeating al Qaeda and
         preventing its return to these two countries. To implement this new strategy, which includes increasing the number
         of U.S. troops and civilians in Afghanistan, the Administration has asked the Congress for additional resources
         for reconstruction programs to build the Afghan security forces, advance the rule of law, and lay the foundation
         for economic development. The President noted SIGAR’s important role in providing oversight to ensure that
         taxpayer dollars are not subject to waste, fraud, or abuse.


         I have made three trips to Afghanistan since my appointment as Inspector General. During my most recent visit in
         March I met with senior Afghan ofﬁcials, including President Hamid Karzai, as well as the U.S. civilian and military
         leadership. I also had meetings with members of the international development community and spent time with
         two Provincial Reconstruction Teams (PRTs) and local government ofﬁcials. These discussions underscored the
         urgent need for the United States to support anti-corruption efforts in Afghanistan and for U.S. reconstruction
         efforts to be better integrated not only among U.S. agencies, but also between these agencies, the Government of
         the Islamic Republic of Afghanistan (GIRoA), and the international community.


         As part of the new U.S. strategy, the President said there needs to be a new compact with the Afghan government
         that cracks down on corrupt behavior. Afghan ofﬁcials, including President Karzai, have asked me to help them
         to strengthen their government’s capability to combat corruption. Since corruption corrodes the legitimacy of the
         government and undermines international reconstruction and development efforts, I believe that strengthening
         Afghanistan’s capability to ﬁght corruption should be an integral part of the U.S. reconstruction strategy.
         Therefore, I have written to senior U.S. ofﬁcials requesting information on what our implementing agencies are
         currently doing to assist the GIRoA to develop the capacity to ﬁght corruption. I have urged them to respond
         directly to the Afghan government’s repeated pleas in this area.


         SIGAR is also considering ways to respond to Afghanistan’s requests for support in combating corruption that are
         consistent with our oversight mandate, the need to remain independent and objective, and our budgetary realities.
         We will conduct an audit that focuses on 1) evaluating the capacity of the Afghan government to ﬁght corruption,
         and 2) determining what the United States and other donors have done to strengthen that capacity. This audit
         will also assess how the U.S. government has responded to the Afghan government’s requests for assistance to
         combat corruption.


         In my testimony before the House Armed Services Committee in March, I pointed out that, in addition to the $32
         billion in U.S. appropriated funds, the international community has pledged approximately $25 billion towards
i | Report to Congress
Afghanistan’s reconstruction.
The Joint Coordination and
Monitoring Board (JCMB) is
responsible for coordinating
and implementing the
Afghanistan Compact and
the Afghanistan National
Development Strategy
(ANDS). The JCMB has
established a secretariat
and is conducting a strategic
review to support the
integration of the ANDS
                                             The SSpecial
                                             Th       i l IInspector G
                                                                     Generall ((center)) iinspects a b
                                                                                                     bridge
                                                                                                       id construction
                                                                                                                   i
with the Afghanistan
                                                                    project in Konar Province.
Compact objectives. We
believe improved cooperation and coordination are necessary to take full advantage of all the funds provided to
Afghanistan, and at the same time, signiﬁcantly reduce potential waste resulting from duplication of effort. I plan
to meet with members of the JCMB during my next visit to Afghanistan to discuss what it is doing to enhance
international cooperation in rebuilding Afghanistan.


In the last three months SIGAR has expanded its ofﬁces. We now have a presence in four locations in Afghanistan
and are executing our plan to provide broad inter-agency oversight as mandated by the 2008 National Defense
and Authorization Act (P.L. 110-181) which established SIGAR. We have begun six audits. Some of these audits,
such as the review of the controls and accountability for the Commander’s Emergency Response Program
(CERP), will focus on U.S. programs. Others, such as a review of the U.S. and international programs to assist
Afghanistan’s energy sector, will assess, among other things, multilateral goals, coordination, and the degree to
which Afghans participate in the decision-making process and implementation of reconstruction programs. We
have also begun work on contract oversight and expect our ﬁrst audit report in May. Once this report is completed
we will begin to examine the use of security contractors in Afghanistan.


My inspections team, after visiting several reconstruction projects in the provinces, has determined that it is
feasible to conduct inspections throughout Afghanistan. Our inspectors are currently focusing on infrastructure
projects and the PRTs.


SIGAR is poised to fulﬁll its broad mandate to provide effective oversight of the reconstruction effort in
Afghanistan. We have received $16 million dollars in appropriated funds and this was sufﬁcient to cover our
start-up needs. However, we face a $7.2 million shortfall for the remainder of ﬁscal year 2009. This additional
funding is essential for us to continue to hire and deploy the professional staff necessary to meet our oversight
responsibilities.

                                                           Very Respectfully,




                                                           Arnold Fields
                                                           Major General, USMC (Ret.)
                                                           Special Inspector General for Afghanistan Reconstruction

                                                                                                                         April 30, 2009 | ii
E
T                                                                                Office of the SIGAR




     TABLE OF CONTENTS

                           TABLES AND GRAPHS                                 v


                           EXECUTIVE SUMMARY                                2


                           SECTION I: INTRODUCTION                           5


                           SECTION II: SIGAR OVERSIGHT                      10
                           SIGAR Mission, Goals and Structure               10
                           Audits                                           12
                           Inspections                                      19
                           Investigations                                   24
                           Information Management                           25
                           SIGAR Concerns                                   26
                           SIGAR Testimony                                  28
                           SIGAR Budget                                     28
                           SIGAR Offices and Staff                          30
                           SIGAR Meetings in Afghanistan                    31


                           SECTION III: RECONSTRUCTION FUNDS SUMMARY        34
                           Reconstruction Funding Summary                   34
                           U.S. Funding                                     34
                           U.S. Appropriated Funds By Implementing Agency   35
                           Audit of Financial Data                          44
                           Reconstruction Contracts in Afghanistan          45
                           International Assistance                         45




iii | Report to Congress
Office of the SIGAR
                                                                                                 E
                                                                                                 T



                      SECTION IV: RECONSTRUCTION OVERSIGHT SUMMARY             48
                      Introduction                                             48
                      Oversight Reports Completed since January 30, 2009       48
                      SIGIR Hard Lessons                                       52
                      Planned Oversight Audits                                 53


                      APPENDICES                                               55
                      Appendix A – Cross-Reference to Reporting Requirements   55
                      Appendix B – U.S. Government Appropriated Funds          58
                      Appendix C – SIGAR Planned and Ongoing Audits            64
                      Appendix D – SIGAR Planned Inspections                   66
                      Appendix E – Hotline Posters                             67
                      Appendix F – Acronyms                                    70
                      Appendix G – Endnotes                                    73




                                                                                    April 30, 2009 | iv
E
T                                                                                                      Office of the SIGAR




    TABLES AND GRAPHS

                             Table 2-1: SIGAR Funding Summary                                     29

                             Table 2-2: SIGAR Employee Numbers                                    30

                             Table 3-1: U.S. Appropriations by Fiscal Year                        34

                             Figure 3-1: U.S. Appropriated Funds for Afghanistan                  35

                             Figure 3-2: DoD Annual Funding Programs                              36

                             Table 3-2: Annual CERP Funding by sector                             39

                             Figure 3-3: DoS Annual Funding Programs                              40

                             Figure 3-4: USAID Annual Funding Programs                            41

                             Figure 3-5: U.S. Department of Agriculture Annual Funding Programs   42

                             Figure 3-6: Other Agencies Annual Funding Programs                   43

                             Table 3-3: Apportioned, obligated, and expended                      44
                                       funds by agency

                             Table 3-4: Afghanistan Reconstruction Contracts by Agency            45

                             Table 3-5: International Assistance                                  45

                             Table 4-1: Completed GAO Oversight Reports                           48

                             Table 4-2: DoS IG, On-Going Audits                                   53

                             Table 4-3: DoD IG, On-Going Audits                                   53

                             Table 4-4: GAO, On-Going Audits                                      53




    v | Report to Congress
               SPECTOR
             IN        GE
          AL             N
   CI




                                 ER
SPE




                                   AL
AFG




                                       N
                                       IO
 HA




                                 CT
      N                            U
          IS                     R
               TA              T
                  N   RECONS




                                            EXECUTIVE
                                            SUMMARY
  E      EXECUTIVE SUMMARY
                                                                                                                    Office of the SIGAR




         EXECUTIVE SUMMARY

                   This quarterly and semiannual report to Congress on reconstruction in Afghanistan
                   is divided into four sections followed by appendices. Section one summarizes recent
                   developments that impact reconstruction in Afghanistan. Section two details SIGAR’s
                   oversight activities undertaken since January 30, 2009. Section three provides an update on
                   the use of reconstruction funds in Afghanistan. Section four describes the reports and audits
                   relating to the reconstruction of Afghanistan by other inspectors general and the Government
                   Accountability Ofﬁce (GAO).

                   Afghanistan Update

                   Several recent developments, including the announcement of a new U.S. strategy for
                   Afghanistan and Pakistan, have affected the reconstruction program in Afghanistan and
                   underscored the importance of vigorous oversight. SIGAR has prioritized its audits and
                   inspections to provide broad oversight of projects and programs that are critical to achieving
                   the U.S. strategic objectives in Afghanistan.

                   Recognizing the importance of holding free, fair, and transparent elections, SIGAR is
                   conducting a two-phase audit of programs to support the elections process. The ﬁrst part
                   of the audit, which will be released prior to the elections, is intended to identify what the
                   United States and the international community are doing to help Afghanistan prepare
                   for elections. The second part of the audit will be issued after the elections as a “lessons
                   learned” report to assist in the planning of future elections.

                   SIGAR Oversight

                   Since its last quarterly report to Congress, SIGAR has completed three oversight planning
                   documents, begun six audits, conducted several site visits of reconstruction projects in
                   Afghanistan, and issued two letters of inquiry concerning anti-corruption efforts. The
                   Inspector General also testiﬁed before the House Armed Services Committee at a hearing on
                   “Effective Counterinsurgency: How the Use and Misuse of Reconstruction Funding Affects
                   the War Effort in Iraq and Afghanistan.”

                   Reconstruction Funding

                   The U.S. Congress has appropriated $32.9 billion for the reconstruction of Afghanistan
                   since 2002. Other nations and international organizations have pledged a total of about
                   $25.4 billion for the reconstruction of Afghanistan during the same period. Currently, the
                   United States contribution accounts for about 60 percent of the $58.3 billion in delivered and
                   promised international aid to Afghanistan.




2 | Report to Congress
Office of the SIGAR
                                                                                               EXECUTIVE SUMMARY
                                                                                                                                     E

                      SIGAR is planning to conduct an audit to identify and track the allocations, obligations, and
                      expenditures of all U.S. funds used for Afghanistan’s reconstruction. As a result of this audit,
                      SIGAR will be able to provide detailed, reliable information on the use of U.S. funds by ﬁscal
                      year, as well as by agency account and reconstruction sector or program.

                      The Departments of Defense and State, and the United States Agency for International
                      Development reported that approximately $13.6 billion have been obligated for about 950
                      reconstruction contracts in Afghanistan. SIGAR is analyzing the data provided by these
                      agencies.

                      Oversight by Other Agencies

                      GAO published two reports and also provided congressional testimony pertaining to
                      reconstruction in Afghanistan this reporting period. Both of the GAO reports concerned aspects
                      of the U.S. effort to build the Afghan security forces.

                      The Inspectors General of the Departments of State and Defense, as well as the Inspector
                      General of USAID, and the GAO have on-going audits of reconstruction activities in
                      Afghanistan. SIGAR will present summaries of these audits as they are issued.




                                                                                                                         April 30, 2009 | 3
                                  INTRODUCTION


               SPECTOR
             IN        GE
          AL             N
   CI




                                 ER
SPE




                                   AL
AFG




                                       N
                                       IO
 HA




                                 CT
      N                            U
          IS                     R
               TA              T
                  N   RECONS




                                            1
Office of the SIGAR
                                                                                                         INTRODUCTION
                                                                                                                                      1


         INTRODUCTION

                      Since SIGAR’s last Quarterly Report to Congress, several developments have affected
                      the reconstruction program in Afghanistan and underscored the importance of vigorous
                      oversight. SIGAR has adapted its strategic plans to address issues raised as a result of these
                      events:

                            •   The United States announced and has begun implementing a new military and
                                political strategy which will require additional resources for reconstruction in
                                Afghanistan.

                            •   The international community pledged to provide additional resources for
                                governance, economic development, and security programs in Afghanistan.i

                            •   Afghanistan scheduled its presidential elections for August of this year.

                            •   Afghan ofﬁcials, including President Karzai, have personally asked SIGAR for
                                assistance to combat corruption.


                      New U.S. Strategy

                      In response to deteriorating security across Afghanistan, President Obama announced a new
                      U.S. Strategy to “disrupt, dismantle, and defeat al Qaeda in Pakistan and Afghanistan, and
                      to prevent their return to either country in the future.”ii Under this strategy the United States
                      is increasing its assistance to Afghanistan in three critical areas. First, the United States is
                      deploying additional combat troops to improve security. Second, it is shifting the emphasis
                      of the mission to training and increasing the size of Afghanistan’s security forces. Third, it is
                      bolstering the civilian effort to promote good governance and economic development.iii This
                      new strategy demands greater oversight of the entire reconstruction program.

                      On April 9, 2009 the President sent to the U.S. Congress a supplemental appropriations
                      request totaling $83.4 billion to fund ongoing military, diplomatic, and intelligence
                      operations. He said that nearly 95 percent of these funds would be used to support U.S.
                      troops in Iraq and Afghanistan. The President said the rest of the money would fund a variety
                      of other U.S. and international programs.iv It is not yet clear how much of this will go for
                      reconstruction in Afghanistan.

                      The President said that the days of “wasteful reconstruction” must end and announced his
                      budget would also include a request for robust funding of SIGAR.v SIGAR is prioritizing
                      its audits and inspections to provide broad oversight of projects and programs that are
                      critical to achieving the U.S. strategic objectives in Afghanistan.




                                                                                                                          April 30, 2009 | 5
  1      INTRODUCTION
                                                                                                                     Office of the SIGAR




                   The new strategy will put additional resources into building Afghanistan’s security forces.
                   In the coming months the United States will deploy approximately 4,000 U.S. troops to train
                   and support the Afghan National Army (ANA) and the Afghan National Police (ANP). The
                   goal is to have a 134,000-strong army and an 82,000-strong police force by 2011.vi SIGAR
                   is paying particular attention to security programs which have to date consumed more than
                   half of all U.S. reconstruction dollars. For example, SIGAR’s ﬁrst audit report, which it
                   expects to release in May 2009, examines the oversight of a $404 million contract to provide
                   training to the ANA and the ANP.

                   In addition to more troops, the United States plans to signiﬁcantly augment the civilian
                   effort in the provinces to support a broad range of reconstruction activities to strengthen
                   Afghanistan’s economy and its institutions. This includes working with Afghans to develop
                   economic alternatives to the illicit drug trade which fuels crime and funds the insurgency,
                   build critical infrastructure, provide essential services, combat corruption, and advance the
                   rule of law. Since most of these civilians will be assigned to the Provincial Reconstruction
                   Teams (PRTs), SIGAR is launching a comprehensive inspection of the management of the
                   PRTs. During FY 2009, SIGAR will inspect four PRTs and intends to complete its review
                   of all 26 PRTs operating in Afghanistan over the next two years. In addition, SIGAR is
                   auditing the internal controls of the Commander’s Emergency Response Program (CERP),
                   which is providing some of the funds for PRT reconstruction projects.

                   The new U.S. strategy also puts renewed emphasis on increasing international support
                   for the reconstruction of Afghanistan. The President said the United States is urging its
                   NATO allies in Afghanistan, the United Nations, and international aid organizations to
                   provide additional civilians—from agronomists and educators to engineers, lawyers and
                   accountants—to assist the reconstruction effort. SIGAR is paying particular attention to the
                   coordination of U.S. and international projects and programs to rebuild Afghanistan.


                   The International Conference on Afghanistan

                   Secretary of State Hillary Clinton received support for the new U.S. strategy at
                   the International Conference on Afghanistan held in the Netherlands on March 31.
                   Representatives from about 90 countries attended the meeting and in a ﬁnal statement the
                   conference chairmen welcomed the strategy “as an important contribution to re-energizing
                   our common efforts in Afghanistan.”vii Conference participants identiﬁed three priority
                   goals: to promote good governance and stronger institutions; to generate economic growth;
                   and to strengthen security and enhance regional cooperation. They pledged to provide the
                   resources required to achieve these goals.viii

                   As part of its oversight responsibilities, SIGAR is tracking international contributions to the
                   reconstruction of Afghanistan to evaluate U.S. coordination of its programs with those of the
                   international community. SIGAR’s strategic plan includes audits which will not only review




6 | Report to Congress
Office of the SIGAR
                                                                                                          INTRODUCTION
                                                                                                                                      1


                      U.S. projects within a sector, but also assess the degree to which they are integrated into an
                      overall plan with internationally-funded projects.

                      Delegates to the international conference underscored the importance of Afghanistan’s
                      presidential elections and promised to support the effort to conduct a secure, transparent,
                      fair, and credible vote that helps consolidate democracy.ix


                      Elections

                      President Karzai’s term was to ofﬁcially end on May 22 of this year. Although the
                      Afghanistan Constitution mandates that elections be held 30 to 60 days before the end of
                      a president’s term, the Afghanistan Independent Election Commission (IEC) announced
                      it will hold the elections on August 20, 2009.x The postponement gives the Afghan and
                      international forces more time to improve security. The IEC plans to open polling in every
                      district, while recognizing that it may not be able to conduct voter registration in 14 districts
                      that are not considered safe by the United Nations. The United Nations is supporting the
                      election process through the United Nations Development Fund (UNDP). The United States
                      recently pledged $40 million to the UNDP election effort and is encouraging other potential
                      donor nations to contribute funds to help meet the UNDP’s requirements for the elections.xi

                      Recognizing the importance of holding free, fair, and transparent elections, SIGAR is
                      conducting a two-phase audit of programs to support the elections process. The ﬁrst part
                      of the audit, which will be released prior to the elections, is intended to identify what the
                      United States and the international community are doing to help Afghanistan prepare
                      for elections. The second part of the audit will be issued after the elections as a “lessons
                      learned” report to assist in the planning of future elections.


                      Anti-Corruption Initiatives

                      The U.S. government has observed that corruption corrodes the legitimacy of the Afghan
                      government and undermines reconstruction and development efforts. President Obama,
                      in announcing the new strategy, said the United States “will seek a new compact with the
                      Afghan government that cracks down on corrupt behavior” and establishes clear guidelines
                      for international assistance.

                      Afghan ofﬁcials, including President Karzai, have requested that SIGAR help them develop
                      the capacity to combat corruption. SIGAR believes that strengthening the capabilities of
                      the Afghan government to ﬁght corruption should be an integral part of the reconstruction
                      effort. SIGAR has written to senior U.S. ofﬁcials to ascertain what the U.S. Government is
                      currently doing to combat corruption in Afghanistan.




                                                                                                                          April 30, 2009 | 7
  1      INTRODUCTION
                                                                                                               Office of the SIGAR




                    SIGAR will conduct an audit to evaluate the capacity of the Afghan government to ﬁght
                    corruption and determine what the United States and other donors have done to strengthen
                    Afghanistan’s capacity. The audit will also assess how the U.S. government has responded
                    to the Afghan government’s requests for assistance to combat corruption.




8 | Report to Congress
                                SIGAR
                                  INTRODUCTION
                                      OVERSIGHT

                       SIGAR Mission, Goals and Structure

               SPECTOR                              Audits
             IN        GE
          AL             N                     Inspections
   CI




                                   ER
SPE




                                     AL
                                             Investigations

                               Information Management

                                         SIGAR Concerns
AFG




                                        N
                                        IO
                                         SIGAR Testimony
 HA




                                   CT
      N                             U        SIGAR Budget
          IS                      R
               TA               T
                  N   RECONS      SIGAR Offices and Staff

                          SIGAR Meetings in Afghanistan




                                                  1
                                                  2
  2      SIGAR OVERSIGHT
                                                                                                                    Office of the SIGAR




         SIGAR OVERSIGHT

                   The National Defense Authorization Act of 2008 (Public Law 110-181) established the
                   ofﬁce of the Special Inspector General for Afghanistan Reconstruction (SIGAR) to enhance
                   oversight of programs for the reconstruction of Afghanistan by conducting independent and
                   objective audits and investigations on the use of taxpayer dollars and related funds. A key
                   part of SIGAR’s mission is to keep the Congress and the Secretaries of State and Defense
                   informed of reconstruction progress and weaknesses.

                   Afghanistan reconstruction, as deﬁned by P.L. 110-181, includes any major contract, grant,
                   agreement, or other funding mechanism entered into or implemented by any department
                   or agency of the United States government that involves the use of funds appropriated, or
                   otherwise made available for the reconstruction of Afghanistan with any private entity to:

                          •   Build or rebuild the physical infrastructure of Afghanistan

                          •   Establish or reestablish Afghanistan’s political or social institutions

                          •   Provide products or services to the people of Afghanistanxii

                   During this quarter SIGAR has completed three oversight planning documents, begun six
                   audits, conducted several site visits of reconstruction projects in Afghanistan, and issued
                   two letters of inquiry concerning anti-corruption efforts. The Inspector General also testiﬁed
                   before the House Armed Services Committee at a hearing on “Effective Counterinsurgency:
                   How the Use and Misuse of Reconstruction Funding Affects the War Effort in Iraq and
                   Afghanistan.”




         SIGAR MISSION, GOALS, and STRUCTURE

                   SIGAR recognizes that reconstruction is critical to the U.S. strategy to defeat Al Qaeda and
                   promote a more capable and accountable government in Afghanistan.

                   In the conduct of its work, SIGAR takes into account the reconstruction objectives of the
                   Afghanistan Compact and Afghanistan National Development Strategy (ANDS), as well as
                   the U.S. strategic objectives. The Compact, approved in 2006, established a framework for
                   international cooperation with Afghanistan. It identiﬁed three critical and interdependent
                   pillars of reconstruction: security, governance, and development. The ANDS, signed by
                   President Karzai in April 2008, laid out the Afghan government’s development vision for
                   2020, and outlined speciﬁc objectives within the three pillars of the Afghanistan Compact.



10 | Report to Congress
Office of the SIGAR
                                                                                                     SIGAR OVERSIGHT
                                                                                                                                    2


                      SIGAR’s primary goal is to provide accurate and balanced information, observations, and
                      recommendations to the U.S. Congress, U.S. agencies, and other decision-makers to:

                            •   Improve effectiveness of the overall reconstruction strategy and its component
                                programs

                            •   Improve management and accountability over funds administered by U.S. and
                                Afghan agencies and their contractors

                            •   Improve contracting and contract management processes

                            •   Prevent fraud, waste, and abuse

                            •   Advance U.S. interests in the reconstruction of Afghanistan

                      SIGAR has created four directorates—audits, inspections, investigations, and information
                      management—to achieve its objectives. It has ofﬁces in Arlington, Virginia and at the U.S.
                      Embassy in Kabul. During this reporting period, SIGAR also established a presence at the
                      Bagram Air Field (BAF) and at the Kandahar Air Field (KAF) to facilitate audit, inspection,
                      and investigation visits to reconstruction projects in the provinces.


                      Memorandum of Agreement with the Department of the Army
                      and the United States Forces-Afghanistan (USFOR-A)

                      In April 2009, SIGAR and the Ofﬁce of the Secretary of the U.S. Army signed a
                      memorandum of agreement (MOA) outlining the actions, roles and responsibilities of
                      the Department of the Army as the designated support agency of SIGAR. This includes
                      administrative, logistical, and contracting support. SIGAR signed a second MOA with
                      USFOR-A which established the framework for USFOR-A’s assistance to SIGAR in
                      Afghanistan. Under this agreement, USFOR-A began providing direct support for
                      SIGAR teams working from Camp Eggers, BAF, and KAF on April 1, 2009. USFOR-A
                      subsequently issued a fragmentary order (FRAGO) directing its subordinate commands to
                      fully support SIGAR oversight efforts throughout Afghanistan by providing security, ofﬁce
                      space, life support, and transport. This support is essential to SIGAR fulﬁlling its oversight
                      mission.




                                                                                                                       April 30, 2009 | 11
  2      SIGAR OVERSIGHT
                                                                                                                    Office of the SIGAR




         AUDITS

                   SIGAR has appointed an Assistant Inspector General for Audits (AIG-Audits) and now
                   has eight auditors and program analysts in place. Four of them are based in Kabul and the
                   other four will travel to Afghanistan as needed. They are all highly qualiﬁed professionals
                   with signiﬁcant work experience with the Government Accountability Ofﬁce (GAO) or
                   other inspectors general, and most have advanced degrees. To assist and provide temporary
                   audit staff augmentation, the Special Inspector General for Iraq Reconstruction (SIGIR) has
                   detailed three staff members to SIGAR. They are currently in Kabul and SIGAR is paying
                   their salaries. Subject to funding, SIGAR plans to hire at least ten additional auditors this
                   ﬁscal year.

                   Since January 30, 2009, the SIGAR audit team has completed its strategic plan, developed a
                   work plan for FY 2009, and launched six audits.


                   Audit Priorities

                   Public Law 110-181 (Sections 1229 and 842) gives SIGAR broad audit responsibilities in
                   three areas:

                          •   Directs SIGAR to conduct, supervise, and coordinate audits of the treatment,
                              handling, and expenditure of amounts appropriated or otherwise made available
                              for the reconstruction of Afghanistan, and of the programs, operations, and
                              contracts carried out utilizing such funds.

                          •   Requires that audits of contracts be coordinated with other inspectors general, and
                              tasks SIGAR to develop a comprehensive plan for government-wide conduct of
                              these contract audits.

                          •   Charges SIGAR to conduct a forensic audit of all reconstruction funding.

                   SIGAR has identiﬁed six categories of audits it plans to conduct to fulﬁll these
                   responsibilities, these include reviews of:

                          •   Security programs to assist the development of Afghanistan’s military and police

                          •   Development sector effectiveness

                          •   Governance sector effectiveness




12 | Report to Congress
Office of the SIGAR
                                                                                                    SIGAR OVERSIGHT
                                                                                                                                     2


                            •   The use of contractors and of speciﬁc contracts for security services and other
                                reconstruction purposes

                            •   Internal controls and accountability

                            •   Reconstruction strategy, planning, and oversight

                      SIGAR has six audits underway that fall under four of these categories. As SIGAR builds
                      its audit capacities, it anticipates having at least one review ongoing in each category at all
                      times. All audits will be vetted within the cognizant inspectors general (IG) community,
                      and with GAO prior to initiation to avoid redundancies and to take full advantage of prior
                      reports. With the exception of contract audits mandated by SIGAR’s enabling legislation
                      (PL 110-181), the audit team will generally look across multiple agencies to avoid
                      overlap with individual IG authorities. SIGAR will determine audit priorities based on
                      congressional guidance; the audit coverage and plans of other IGs, the GAO, and other, audit
                      agencies; events in Afghanistan; security issues affecting the feasibility of conducting the
                      work; U.S. agencies, the U.S. Embassy in Kabul, and the Government of Afghanistan.


                      Security Sector: Military and Police Aid

                      Both the new U.S. strategy for Afghanistan and the ANDS make improving security through
                      the development of Afghanistan’s military and police forces a top priority. Programs to
                      support and train Afghan forces and police have accounted for approximately $15 billion
                      of the $32 billion appropriated for the reconstruction of Afghanistan since 2002. This is
                      the largest portion of reconstruction funds. Military assistance to Afghanistan is likely to
                      grow as the United States implements its program to increase the size and capability of the
                      Afghan forces. The Department of Defense (DoD) manages most of these funds, which are
                      used to provide equipment and supplies as well as training, but the State Department also
                      contributes to some security projects. For example, the State Department provides funding
                      and contract oversight of civilian contractors hired to conduct police training. Because of
                      the size of the military and police aid programs, SIGAR will begin its audit work in this area
                      with a broad survey to identify audit issues and priorities.


                      Comprehensive Development Sector Effectiveness Review

                      Development is the second of the three pillars of the ANDS. Development projects and
                      programs receive the second largest amount of funding, after security, from the United
                      States and the international community. The United States has allocated about $6 billion
                      to this pillar. Development programs aim to undermine the inﬂuence of radical elements by
                      improving the quality of life for Afghan citizens. The challenge is to balance development
                      assistance with the capacity of Afghanistan’s institutions to manage it effectively.




                                                                                                                        April 30, 2009 | 13
  2      SIGAR OVERSIGHT
                                                                                                                      Office of the SIGAR




                   SIGAR will conduct comprehensive audits of reconstruction efforts by multiple agencies
                   that focus on speciﬁc development sectors, such as health, education, energy, transportation,
                   and agriculture. The U.S. Agency for International Development (USAID) provides much
                   of the assistance for these sectors, but other agencies, including the Department of Defense,
                   also have development projects. For example, the Commander’s Emergency Response
                   Program (CERP) supports the humanitarian and development sectors. SIGAR reviews
                   will look at funding, how U.S. agencies and international donors are coordinating efforts,
                   whether programs are achieving their desired results, and what challenges exist. These
                   reports will provide a basis for discussing U.S. reconstruction programs in key sectors to
                   be featured in SIGAR’s quarterly reports to Congress. SIGAR is well positioned to conduct
                   these audits because, like the GAO, it has the authority to audit multi-agency programs.
                   Agency inspectors general are limited in their ability to audit other agencies’ programs.

                   SIGAR started this series of comprehensive audits with the energy sector. The objectives of
                   the audit of the effectiveness of reconstruction efforts in the energy sector are to:

                          •   Identify U.S. and international goals for the reconstruction and sustainment of
                              Afghanistan’s energy sector

                          •   Identify the performance metrics used to determine if project milestones and
                              outcomes are adequately tracked

                          •   Assess the progress and results of energy sector reconstruction efforts against the
                              ANDS

                          •   Assess the coordination between the U.S. and international agencies in energy
                              sector reconstruction

                          •   Assess Afghan participation in the decision-making process and implementation
                              of reconstruction programs

                   Subsequent audits will look at the effectiveness of the reconstruction efforts in other sectors,
                   including agriculture, education, health, transportation, and water.


                   Comprehensive Governance Sector Reviews

                   Governance is the third pillar of the ANDS. U.S. efforts are concentrated on developing
                   governing capacity, increasing transparency, and instituting the rule of law in Afghanistan.
                   Because of the importance of the August 2009 elections, SIGAR’s ﬁrst audit in the
                   governance sector is examining the effectiveness of reconstruction efforts to support
                   preparation for and conduct of elections. This review of U.S. assistance for the preparation
                   and conduct of presidential and provincial council elections in Afghanistan will produce two




14 | Report to Congress
Office of the SIGAR
                                                                                                     SIGAR OVERSIGHT
                                                                                                                                     2


                      reports. The ﬁrst, which will focus on the preparations for the elections and coordination
                      of U.S. and international support of the elections, will be released before the elections. The
                      second report, to be published after the elections, will analyze the conduct of the elections.
                      The objectives of this review are to:

                            •   Identify elections assistance funded by the United States and by the international
                                community

                            •   Assess the overall coordination between U.S. and internationally-funded activities
                                to prepare for the elections

                            •   Assess the overall effectiveness of various aspects of election preparation,
                                including voter registration, voter education, polling center security, ballot box
                                integrity, and vote counting procedures

                            •   Identify the strengths and weaknesses of the election process

                            •   Identify lessons learned that may be applied to future elections

                      Subsequent audits in the governance sector will examine reconstruction programs to advance
                      the rule of law, projects to support an independent media, and initiatives to develop oversight
                      entities within Afghanistan’s ministries.


                      Contractor and Contract Audits

                      SIGAR’s authorizing legislation calls for it to review the use of speciﬁc contractors and
                      conduct targeted audits of individual contracts. Auditors will assess compliance with
                      contracting procedures, contractor performance, and agency oversight of the contract.
                      SIGAR expects this work to result in an improved contracting and management process and
                      may generate leads for investigations of waste, fraud, and abuse.

                      SIGAR shares responsibilities for oversight of contracts with the Inspectors General from
                      the Departments of Defense and State, the Inspector General from USAID, GAO, and
                      several other audit agencies. However, authorizing legislation assigns to SIGAR the task
                      of preparing comprehensive plans of contract audits, including security contractor audits,
                      which it and other inspectors general will perform. SIGAR will play a lead role in ensuring
                      that contracts receive adequate audit coverage. SIGAR will select its own audits based on
                      input from other inspectors general and information received in Kabul on contractors and
                      contracts that warrant oversight. In addition, SIGAR will obtain data from reconstruction
                      agencies on all contracts to help determine priorities. SIGAR will complete the required
                      plan for audits of contracts and security contractors by the end of this calendar year.




                                                                                                                        April 30, 2009 | 15
  2      SIGAR OVERSIGHT
                                                                                                                    Office of the SIGAR




                   In the meantime, SIGAR has commenced a series of audits of the oversight and
                   performance of selected contractors for goods and non-security services. This will be
                   an ongoing effort with reports issued every 4-6 months. SIGAR will complete an inventory
                   of all existing contractors; concurrently, auditors will begin individual contractor audits.
                   SIGAR will periodically issue summary reports of observations and recommendations
                   resulting from these audits. SIGAR will also assess contractor performance and compliance
                   with contracting procedures.

                   The ﬁrst contractor audit is examining the U.S. agencies’ use of the Louis Berger Group for
                   reconstruction programs. The audit objectives are to:

                          •   Determine the number and volume of contracts with the contractor

                          •   Assess the agencies’ oversight of the contractor and contractor performance

                   Whenever the work on oversight and performance of contractors uncovers serious
                   weaknesses, SIGAR will consider performing focused contract audits of individual
                   contracts. This may involve looking at the pre-award process, doing a post-award audit, and
                   reviewing a contractor’s internal control system.

                   SIGAR will also begin a series of audits of the use of security contractors, beginning in June
                   2009.



                   Internal Controls and Accountability

                   SIGAR will conduct audits to evaluate the internal controls and accountability of the U.S.
                   implementing agencies and the Afghan government in the reconstruction program. The
                   objective is to identify any control weaknesses and vulnerabilities to corruption created by
                   these weaknesses. Reports will make speciﬁc recommendations to improve accountability
                   and may generate leads for further investigation.

                   SIGAR has launched two audits in this area. The ﬁrst audit is evaluating the accountability
                   and controls over the Commander’s Emergency Response Program (CERP). This
                   review will:

                          •   Examine the controls and procedures in place to ensure the accountability of
                              CERP funds

                          •   Determine how CERP funds are used in relation to congressional authorization
                              and the intentions outlined in program objectives and mission strategies




16 | Report to Congress
Office of the SIGAR
                                                                                                    SIGAR OVERSIGHT
                                                                                                                                    2


                      The second audit is examining the oversight and management provided by key
                      reconstruction agencies. This broad assessment of how agencies are managing the
                      reconstruction program will include an examination of:

                           •    Controls and accountability over funding ﬂows

                           •    Project development and management

                           •    Performance metrics

                           •    Assignment of funded activities to contractors and U.S. government personnel

                      As part of this work, SIGAR’s ﬁrst audit report, which examines the contract oversight
                      conducted by the Combined Security Transition Command-Afghanistan (CSTC-A), will be
                      issued in May 2009. CSTC-A, in conjunction with the GIRoA and U.S. coalition partners,
                      is the DoD command responsible for the management of U.S. programs to develop capable
                      Afghanistan National Security Forces. SIGAR has provided a draft report to relevant
                      agencies for their review and is considering recommending action to CSTC-A to improve its
                      oversight of contractors performing training and related services.


                      Reconstruction Strategy, Planning, and Oversight

                      SIGAR believes it is useful to look at strategy, planning, and oversight issues associated
                      with the overall reconstruction effort. Therefore, SIGAR will assess the tools used by the
                      U.S. agencies, the international donor community, and the Afghan government to plan,
                      manage, and oversee reconstruction as a whole.

                      Auditors are currently conducting an assessment of U.S. government information systems’
                      ability to provide data and management information to decision-makers. The purpose of
                      this review is to identify how information management systems are being used to track and
                      report on reconstruction efforts in Afghanistan. It will:

                           •    Identify the systems used to manage reconstruction information

                           •    Determine the extent to which the systems are integrated

                           •    Determine the responsibilities of U.S. agencies to ensure that consistent, accurate,
                                and complete data is gathered and used in these systems




                                                                                                                       April 30, 2009 | 17
  2      SIGAR OVERSIGHT
                                                                                                                    Office of the SIGAR




                   Ensuring Effective Oversight

                   In addition to performing its own audits, SIGAR will work to enhance the overall oversight
                   of reconstruction programs in Afghanistan by:

                          •   Meeting with congressional and executive branch decision-makers to discuss their
                              oversight needs

                          •   Coordinating with cognizant inspectors general and the government audit
                              community to minimize duplication of effort

                          •   Identifying the audit coverage provided each oversight agency

                          •   Identifying programs or aspects of programs that may not be receiving adequate
                              oversight

                   SIGAR coordinates with the inspector general community and the GAO in a number of
                   formal and informal ways. SIGAR is a member of the Council of Inspectors General on
                   Integrity and Efﬁciency and the South West Asia Joint Planning Group (SWA/JPG). SWA/
                   JPG is a forum for discussing current and planned oversight efforts in the South West Asia
                   region, which includes Afghanistan. In addition, SIGAR communicates on a regular basis
                   with ofﬁcials from the Inspectors General for Defense, State, and USAID, and the GAO to
                   coordinate planned and future audits. SIGAR is also working with representatives from these
                   inspectors general and the GAO to establish an oversight coordination sub-group within the
                   SWA/JPG to meet on an as needed basis to coordinate Afghanistan-speciﬁc oversight issues.


                   Forensic Audit

                   SIGAR is required to conduct a ﬁnal forensic audit report on programs and operations
                   funded with amounts appropriated or otherwise made available for the reconstruction of
                   Afghanistan. During 2009, SIGAR will develop a plan for completing this forensic audit.
                   Key components of this effort will be to:

                          •   Gather data on all contracts and identify how they are managed

                          •   Hire auditors experienced in reviewing contracting policies, rules, and procedures;
                              and in forensic audits and fraud examination

                          •   Conduct contract audits




18 | Report to Congress
Office of the SIGAR
                                                                                                    SIGAR OVERSIGHT
                                                                                                                                  2


                            •   Review contract audits conducted by other entities

                            •   Review efforts of the Special Inspector General for Iraq Reconstruction (SIGIR)
                                to meet a similar legislative requirement




          INSPECTIONS

                      During this reporting period, the SIGAR Inspections Directorate increased its staff to four.

                      The Inspections Directorate ﬁnalized its strategic plan and developed a coordinated work
                      plan for FY 2009. Taken together, these two documents will guide the work and priorities of
                      the SIGAR Inspections Directorate for the rest of the year.

                      Inspection teams also completed several reconstruction site-visits, which allowed SIGAR to
                      determine that it is feasible to conduct inspections throughout Afghanistan. SIGAR has also
                      developed the criteria that its inspection teams will use for the evaluation of projects.

                      A report summarizing the ﬁndings from the on-site visits of CERP-funded projects in
                      Parwan and Kapisa Provinces is being prepared for ﬁnal review and comment. It is expected
                      that the report will be ﬁnalized by May 2009.


                      Inspection Priorities

                      SIGAR will conduct inspections in four areas:

                            •   Infrastructure and construction related projects

                            •   Management aspects of Provincial Reconstruction Teams (PRTs)

                            •   Operation of a Hotline/Complaints Management System

                            •   Rapid response fact-ﬁnding work




                                                                                                                     April 30, 2009 | 19
  2      SIGAR OVERSIGHT
                                                                                                                 Office of the SIGAR




                   Rapid Response Inspection Activities

                   Over the last three months, SIGAR’s rapid response inspection teams visited Bagram,
                   Kandahar, and Khowst to assess the feasibility of conducting ﬁeld work in remote areas of
                   Afghanistan. SIGAR’s rapid response inspection team evaluated:

                          •   Security required for SIGAR personnel to inspect projects in the provinces

                          •   Availability of project documentation, contractors, and implementers

                          •   Logistics and support needed to conduct ﬁeld work

                          •   Sustainability of the projects

                   The agreement with USFOR-A and CJTF-101 enables SIGAR to overcome security related
                   obstacles, and conduct the necessary ﬁeld inspections from Bagram Air Field and from
                   Kandahar Air Field.
                   SIGAR has secured
                   ofﬁce and living spaces
                   in both locations.

                   As part of its feasibility
                   assessment, SIGAR’s
                   rapid response
                   inspection team
                   evaluated three CERP-
                   funded agricultural
                   projects in the Bagram
                   area and one CERP-
                   funded energy project
                   in Khowst Province.
                   The agricultural                      Afghan women participate in the harvesting of saffron
                   projects, which had a total                        plants in November 2008
                   value of about $200,000,
                   included 1) the Kapisa
                   Province Women’s Saffron Production Project, 2) the Animal Health Information
                   Campaign Project for Kapisa and Parwan Provinces, and 3) the Jan Qadam-Bagram
                   Land Leveling and Grape Vineyard Trellis Project. SIGAR selected these projects for
                   preliminary review because of the vital role the agriculture sector plays in Afghanistan’s
                   economy and because these projects touch on key reconstruction issues such as capacity
                   building, health and nutrition, gender equality, and the creation of alternatives to the
                   cultivation of poppies.




20 | Report to Congress
Office of the SIGAR
                                                                                                 SIGAR OVERSIGHT
                                                                                                                                 2


                                                                                        The SIGAR rapid
                                                                                        reponse inspection team
                                                                                        also visited the CERP-
                                                                                        funded Khowst Electric
                                                                                        Grid and Power
                                                                                        Network Upgrade
                                                                                        Project. SIGAR chose
                                                                                        to visit this project
                                                                                        because of its central
                                                                                        location in Khowst near
                                                                                        the Afghanistan-Pakistan
                                                                                        border, its proximity
                                                                                        to a U.S. military
                                                                                        forward operating base
                        Original condition of the Khowst power plant in Jan 2008       (FOB Salerno), and the
                                                                                  importance placed on
                                                                                  electricity generation and
                                                                                  distribution by the ANDS.
               The ANDS identiﬁed development of the energy sector as a precondition for reducing
               poverty and strengthening private sector and rural development. It calls for the generation
               and distribution of energy to 65 percent of households in major urban areas and 25 percent of
               households in rural areas by the end of 2010.

               These site visits found a continuing need to address sustainability issues in small and large
               projects. While the Kapisa Province Women’s Saffron Production Project successfully trained
               25 impoverished women to cultivate, process, and sell saffron spice at a proﬁt, it is not yet
               self-sustaining. It was completed on time and within budget and turned over to the Kapisa
               Province Ministry of Women’s Affairs (MoWA) to continue its operations. However, MoWA
               representatives said the Ministry does not have the resources it needs to sustain this program for
               the two years it will take before it can become fully self-sufﬁcient. The PRT which initiated the
               project has not identiﬁed any more funding for this project. Without additional resources, it is
               unlikely that this project will achieve its objective of becoming a self-sustaining program.

               SIGAR inspectors also identiﬁed serious sustainability issues with the Khowst Electric Grid
               and Power Network Upgrade Project. When the project, which cost $1 million, was turned over
               to the Khowst Provincial Minister of Energy and Water in September 2008, all three newly-
               installed generators were operating properly. During the March 2009 SIGAR site visit, however,
               only one of the generators was still functioning and it was only operating at 60 percent capacity.
               Project documents indicated that generators cost about $116,000 each. The plant manager told
               SIGAR that two generators were inoperable because they were missing parts. SIGAR plans
               to examine the sustainment issues raised during its site visit through a more comprehensive
               inspection of this project. (See Appendix D for a list of planned inspections)




                                                                                                                    April 30, 2009 | 21
  2      SIGAR OVERSIGHT
                                                                                                                      Office of the SIGAR




                   These site visits served primarily to help SIGAR determine the feasibility of conducting
                   investigations in the ﬁeld, identify major reconstruction challenges and develop an
                   inspections plan.


                   Inspection of Infrastructure Construction

                   SIGAR is focusing most of its inspection work on completed and ongoing U.S.-funded
                   infrastructure projects in critical sectors such as energy, health care, agriculture, education,
                   and security. These
                   inspections are designed
                   to complement audit
                   activities in these
                   sectors.

                   The inspection teams
                   include professional
                   engineers, inspectors,
                   and program analysts.
                   Inspections of buildings
                   and construction
                   sites are designed to
                   determine if the work
                   was done on time and
                   within budget, and used
                   materials required by
                                                        Khowst power plant following the installation of new
                   the contract. A key objective of       generators and power distributors in June 2008
                   all inspections is to assess if a
                   facility is being used as intended
                   and maintained properly by the local population or local authority.


                   Inspections of Management Aspects of Provincial Reconstruction Teams (PRTs)

                   SIGAR will begin inspections of the management of the PRTs in May of this year. Based on
                   initial visits to several PRTs and in consultation with PRT managers, SIGAR is continuing
                   to reﬁne a standardized checklist of management issues it intends to assess. This includes
                   such key indicators as interagency stafﬁng levels, the quality of communications (internet,
                   cell phone and land line connectivity), the availability of computer hardware and software,
                   life support, and team morale. The inspection will also identify the challenges faced by PRT
                   program advisors. SIGAR plans to complete comprehensive inspections of four PRTs before
                   the end of 2009 and intends to inspect all of the PRTs over the next two years.




22 | Report to Congress
Office of the SIGAR
                                                                                                    SIGAR OVERSIGHT
                                                                                                                                     2


                      Hotline/Complaints Management System

                      SIGAR has expanded its Hotline/Complaints Management system to provide U.S.
                      government employees, contractors, coalition partner personnel, and Afghanistan citizens a
                      variety of ways to report allegations of fraud, waste, abuse, mismanagement, and reprisal.
                      In Afghanistan SIGAR has an Afghanistan cell phone line, a DSN line for DoD civilian
                      and military personnel, and an international phone line. In the United States, SIGAR has
                      a second DSN line, a secure dedicated fax line, and a dedicated email address. Complaints
                      may also be submitted anonymously on SIGAR’s website. SIGAR has established voice
                      mail in Afghanistan in three languages—Dari, Pashtu, and English—to allow callers to
                      report a complaint. The voice mail also refers callers to the SIGAR website.

                      SIGAR has received four complaints through the Hotline/Complaints Management System
                      since January 2009. SIGAR has determined that two of these complaints had no merit, and
                      is looking into the other two to determine if there is any validity to the allegations. All
                      complaints that are found to have merit will be referred, as appropriate, for further review by
                      SIGAR staff or by other inspectors general or responsible agencies.

                      SIGAR is also distributing Hotline posters in three languages—English, Dari, and Pashtu—
                      to U.S. government installations, forward operating bases, the U.S. Embassy in Kabul,
                      regional embassy ofﬁces, PRTs, and jobsites funded by U.S. reconstruction money in
                      Afghanistan as practicable. SIGAR maintains a complete record of all complaints received.
                      Additional information on the Hotline is available at www.sigar.mil/fraud.


                      Rapid Response Fact-Finding Inspections

                      SIGAR will perform rapid response fact-ﬁnding inspections when it is neither necessary
                      nor practical to conduct a comprehensive inspection or audit. These quick inspections will
                      enable SIGAR to provide timely information to support the SIGAR leadership or respond
                      quickly to requests from the U.S. Congress, the Secretaries of State and Defense, or other
                      government agencies operating in Afghanistan.




                                                                                                                        April 30, 2009 | 23
  2      SIGAR OVERSIGHT
                                                                                                                  Office of the SIGAR




         INVESTIGATIONS

                   Since January 2009, SIGAR has deployed two investigators to Afghanistan, and initiated
                   preliminary inquiries into allegations of irregularities and impropriety in four cases.

                   SIGAR is also focused on improving the coordination and cooperation between several U.S.
                   law enforcement agencies in Afghanistan. As part of this effort, it has worked to unify and
                   expand the International Contract Corruption Task Force (ICCTF).


                   The ICCTF

                   In addition to SIGAR, the ICCTF includes the Defense Criminal Investigative Service
                   (DCIS); the Federal Bureau of Investigation (FBI); and the U.S. Army Criminal
                   Investigation Command (CID). The SIGAR investigator operates out of the main ICCTF
                   ofﬁce at BAF. Since SIGAR arrived, the ICCTF has established one new ofﬁce at CSTC-A
                   in Kabul and is planning to open another one in Kandahar. SIGAR’s partner agencies in the
                   ICCTF have increased their personnel to staff these new ofﬁces. The ICCTF has also invited
                   the U.S. Air Force Ofﬁce of Special Investigations (OSI) to participate in the ICCTF.

                   The Investigations Directorate, which is responsible for the investigation of criminal and
                   civilian misconduct in the reconstruction of Afghanistan, advises SIGAR on all matters
                   relating to U.S. federal law and prosecution. Either through referral or through independent
                   investigation, this directorate examines, develops and prepares civil and criminal cases
                   for advancement to the U.S. Attorney General’s ofﬁce. The focus of investigations is on
                   ﬁnancial crimes, such as fraud and corruption in federal contracting, which are directly
                   relevant to SIGAR’s oversight mission. SIGAR coordinates its investigations with other
                   U.S. and allied law enforcement agencies as necessary to avoid duplication of effort.

                   The Investigations Directorate’s responsibilities include:

                          •   Conducting all interviews relating to criminal or civil investigations

                          •   Developing criminal and civil referrals

                          •   Coordinating and supporting U.S. Attorney activities

                          •   Assisting the U.S. Attorney as requested

                          •   Supporting the Inspections and Audit Directorates as requested




24 | Report to Congress
Office of the SIGAR
                                                                                                     SIGAR OVERSIGHT
                                                                                                                                     2


          INFORMATION MANAGEMENT

                      Quarterly Reports

                      SIGAR is required to submit published reports to the U.S. Congress and the Secretaries
                      of Defense and State on a quarterly and semiannual basis. These reports provide updated
                      information on SIGAR oversight and activities related to Afghanistan reconstruction.

                      SIGAR has identiﬁed a lack of integration and coordination as a major obstacle to the
                      effective and efﬁcient use of reconstruction resources. To help address this problem, SIGAR
                      plans to provide an analysis of the reconstruction progress made and challenges faced in
                      speciﬁc sectors in its Quarterly Report. This section, which will include surveys of the
                      various projects underway within a sector, will be based on the work of SIGAR audits and
                      inspections and draw on additional information provided by U.S. implementing agencies and
                      international organizations working to rebuild Afghanistan.



                      SIGAR Website (www.sigar.mil)

                      SIGAR maintains a public website with regular updates on its oversight activities. The
                      website provides a complete archive of all SIGAR reports and congressional testimony as
                      well as audits and inspections. It also serves as a vehicle for reporting alleged waste, fraud,
                      and abuse.

                      Audit and inspection reports will be posted on the website as they are published. Letters of
                      inquiry, congressional testimony, and speeches by the Special Inspector General are also
                      published on the website.




                                                                                                                        April 30, 2009 | 25
  2      SIGAR OVERSIGHT
                                                                                                                    Office of the SIGAR




         SIGAR CONCERNS

                   SIGAR Requests Information about U.S. Anti-Corruption Efforts

                   Part of SIGAR’s oversight role is to raise issues of potential concern and to ask the
                   reconstruction agencies what they are doing to address these issues. SIGAR has identiﬁed
                   corruption in Afghanistan as one such area of concern. Moreover, Afghan government
                   ofﬁcials have on several occasions requested assistance from SIGAR for its anti-corruption
                   efforts:

                          •   In November 2008, the Minister of Interior, Mohamad Hanif Atmar, told SIGAR
                              he would like to have 35 international auditors to work with Afghan accountability
                              ofﬁcials throughout the country to support anti-corruption efforts. The Minister
                              made this request in the presence of U.S. Embassy representatives. In early
                              April 2009 State Department ofﬁcials contacted SIGAR to discuss the Interior
                              Minister’s request.

                          •   In January 2009, SIGAR met with Afghanistan’s Auditor General of the Control
                              and Audit Ofﬁce, Prof. Mohammad Sharif Shariﬁ, and described the audit
                              standards that SIGAR follows. Compliance with these standards, established
                              by the Comptroller General of the United States and commonly referred to
                              as the “Yellow Book,” enhances the credibility of ﬁndings, conclusions, and
                              recommendations presented to decision-makers. SIGAR also discussed the
                              internal control standards—known as the “Green Book”—which were also
                              established by the Comptroller General. Prof. Shariﬁ indicated it would be helpful
                              if these standards, or portions of these standards, were available in the Dari and
                              Pashtu languages. GAO has informed SIGAR that these standards have been
                              translated into Arabic, but not into Dari or Pashtu. SIGAR has raised this issue in
                              a letter of inquiry to the U.S. Embassy in Kabul.

                          •   In March 2009, President Karzai asked SIGAR for support in ﬁghting corruption
                              and suggested that SIGAR participate in the Afghan government’s Anti-
                              Corruption Council. SIGAR may observe, but as an independent oversight body,
                              it cannot participate in the Council.

                   The Department of Defense reported in January 2009 that corruption corrodes the legitimacy
                   of the Afghan government and undermines international reconstruction and development
                   efforts. In his announcement of the new U.S. strategic plan, the President noted that the
                   United States cannot “turn a blind eye to the corruption that causes Afghans to lose faith
                   in their own leaders.” He said the United States would “seek a new compact with the
                   Afghan government that cracks down on corrupt behavior, and sets clear benchmarks for
                   international assistance so that it is used to provide for the needs of the Afghan people.”




26 | Report to Congress
Office of the SIGAR
                                                                                                    SIGAR OVERSIGHT
                                                                                                                                 2


                      In light of the growing concern over corruption in Afghanistan, SIGAR has sent a letter of
                      inquiry to senior U.S. ofﬁcials requesting information on:

                           •    Current and planned programs to support the Afghan government’s anti-corruption
                                efforts

                           •    Actions taken in response to Minister Atmar’s repeated requests for 35
                                international auditors to be stationed throughout Afghanistan

                           •    The priority that support for Afghan anti-corruption efforts has in the overall
                                reconstruction strategy and with individual programs

                           •    The agency or agencies that should take the lead in responding to Afghan requests
                                for help in strengthening anti-corruption capabilities

                      Recognizing that strengthening the Afghan government’s ability to institutionalize
                      an anti-corruption effort is an integral part of the reconstruction strategy, SIGAR will
                      conduct an audit to 1) evaluate the capacity of the Afghan government to ﬁght corruption,
                      and 2) determine what the United States and other donors have done to strengthen that
                      capacity. The audit will also assess how the U.S. government has responded to the Afghan
                      government’s requests for assistance to combat corruption.


                      SIGAR Meets with CSTC-A about Weapons Accountability Issues

                      Pursuant to a GAO report that identiﬁed weaknesses in the accountability of weapons for
                      the Afghan National Security Forces, SIGAR met with the Deputy Commanding General
                      of CSTC-A and his logistics director to discuss the issue. According to the Deputy
                      Commanding General, CSTC-A is working with the U.S. Army Security Assistance
                      Command to establish a baseline of serial numbers for weapons shipped to CSTC-A.
                      CSTC-A has also requested ten additional qualiﬁed security assistance ofﬁcers to further
                      address problems in tracking weapons procured for the ANSF. In addition, a SIGAR auditor
                      accompanied a DoD IG audit team that is conducting a review of this issue.




                                                                                                                    April 30, 2009 | 27
  2      SIGAR OVERSIGHT
                                                                                                                    Office of the SIGAR




         SIGAR TESTIMONY

                   On March 25, 2009, the Inspector General along with SIGIR and GAO, testiﬁed before
                   the House Armed Services Committee on “Effective Counterinsurgency: How the Use and
                   Misuse of Reconstruction Funding Affects the War Effort in Iraq and Afghanistan.” During
                   this testimony, the Inspector General highlighted the importance of:

                          •   Coordinating the oversight of the reconstruction effort with the community of
                              inspectors general and the Government Accountability Ofﬁce (GAO) to ensure
                              broad coverage

                          •   Integrating the U.S., international, and Afghan efforts to meet the developmental,
                              economic, security, and other needs of the Afghan people

                   SIGAR works with its counterparts from the Departments of Defense and State, USAID,
                   the GAO, and other agencies to share plans and align audits, inspections, and anticipated
                   investigations.

                   The SIGAR noted that some of the lessons learned in Iraq may be applied to Afghanistan.
                   He said U.S. implementing agencies should examine these lessons to improve their practices
                   as appropriate. He pointed out that one signiﬁcant difference between Iraq and Afghanistan
                   is the large international commitment to Afghanistan. He said there was a need for greater
                   international coordination and cooperation to ensure that the U.S and international assistance
                   had the biggest possible impact on improving the lives of the Afghan people.

                   In response to congressional interest in how projects are beneﬁtting women in Afghanistan,
                   SIGAR will make a special effort to identify and review how programs affect gender issues.




         SIGAR BUDGET

                   SIGAR requested $23 million for its FY 2009 budget. The United States Congress
                   appropriated $2 million for fourth quarter FY 2008 and an additional $5 million for FY
                   2009 from the Supplemental Appropriations for FY 2008. The Congress subsequently
                   appropriated an additional $9 million under the Consolidated Security, Disaster Assistance,
                   and Continuing Appropriations Act of 2009 for a total of $16 million in appropriated funds.




28 | Report to Congress
Office of the SIGAR
                                                                                                         SIGAR OVERSIGHT
                                                                                                                                    2



                      The $16 million will allow SIGAR to hire approximately 52 employees over the course of
                      this ﬁscal year and fund support services, space, and logistical requirements. However, it
                      falls short of the $23.2 million originally requested in order to effectively implement the
                      ofﬁce’s mandated oversight activities.

                      Budget constraints limit SIGAR’s ability to hire the 90 staff required to conduct the detailed
                      assessments, evaluations, and analysis necessary to effectively oversee the $32 billion in
                      humanitarian and reconstruction aid provided by the United States. On December 3, 2008,
                      SIGAR formally submitted a request to the Ofﬁce of Management and Budget for FY 2009
                      Supplemental funding in the amount of $7.2 million in an effort to address the organization’s
                      ﬁnancial shortfall.




                         Appropriation                Public Law      Appropriated    Made Available     Expires     Amount
               Supplemental Appropriations for
                                                      P.L. 110-252     6/30/2008        6/30/2008        9/30/2009   $2,000
               Fiscal Year 2008, H.R.2642
               Supplemental Appropriations for
                                                      P.L. 110-252     6/30/2008        10/1/2008        9/30/2009   $5,000
               Fiscal Year 2008, H.R.2642
               Consolidated Security, Disaster
               Assistance, and Continuing             P.L. 110-329     9/30/2008        9/30/2008        9/30/2010   $9,000
               Appropriations Act, 2009
                                                                                                       TOTAL         $16,000

                                                 Table 2-1– SIGAR Funding Summary (in $ millions)




                                                                                                                       April 30, 2009 | 29
  2      SIGAR OVERSIGHT
                                                                                                                    Office of the SIGAR




         SIGAR OFFICES AND STAFF

                   Since its last Quarterly Report to Congress, SIGAR has made progress in establishing
                   and stafﬁng its ofﬁces in the United States and Afghanistan. The total number of federal
                   personnel has increased from 14 to 32. In addition, SIGAR is currently employing ten
                   contractors in support of back ofﬁce functions such as preparing the quarterly report. These
                   numbers do not include personnel detailed from SIGIR. The following chart provides a
                   breakdown of SIGAR personnel by directorate at the end of the second quarter. SIGAR has
                   identiﬁed an additional 20 candidates and expects them all to be hired by the end of the third
                   quarter.




                                                     Employees as of January 01,    Employees as of March 31,
                                   Directorate
                                                               2009                          2009
                      Operations                                 5                              6
                      Staff                                      8                             11
                      Information Management                     0                              2
                      Audit                                      0                              7
                      Inspections                                1                              4
                      Investigations                             0                              2
                      Total                                      14                            32

                                                       Table 2-2 –SIGAR Employees




                   SIGAR Afghanistan Office

                   During the last quarter, SIGAR expanded its presence in Afghanistan. In addition to its
                   base in the U.S. embassy in Kabul, SIGAR established satellite ofﬁces at CSTC-A, BAF,
                   and KAF. These ofﬁces are located in strategic areas to help SIGAR achieve uninterrupted
                   oversight of Afghanistan reconstruction efforts.




30 | Report to Congress
Office of the SIGAR
                                                                                                  SIGAR OVERSIGHT
                                                                                                                                  2


          SIGAR MEETINGS IN AFGHANISTAN

                      The Special Inspector General for Afghanistan made two trips to Afghanistan during this
                      reporting period. He met with key Afghan government ofﬁcials, the senior leadership of
                      the U.S. mission in Afghanistan, to explain SIGAR’s oversight mission, which includes
                      audits, inspections and investigations. SIGAR’s discussions focused on reconstruction issues
                      and the organization’s of strategy for providing effective oversight. SIGAR met with the
                      following people:

                      Afghan Ofﬁcials:

                           •    President of Afghanistan Hamid Karzai

                           •    Minister of Defense

                           •    Minister of the Interior

                           •    Minister of Finance

                           •    Minister of Agrigculture

                           •    Minister of Electricity

                           •    Governor of Helmand Province

                           •    Governor of Konar Proivince

                           •    Deputy Governor of Panjshir Province

                           •    Dean of the National Military Academy of Afghanistan

                           •    Deputy Governor of Khowst Province

                      U.S. Government Agency Representatives:

                           •    U.S. Ambassador

                           •    Deputy Chief of Mission

                           •    Commanding General, USFOR-A

                           •    Deputy Commanding General, USFOR-A




                                                                                                                     April 30, 2009 | 31
  2      SIGAR OVERSIGHT
                                                                                                          Office of the SIGAR




                          •   Chief Engineer, USFOR-A

                          •   Military Advisor to U.S. Ambassador

                          •   Combined Trainers Advisory Group (CTAG) & Military Academy

                          •   USAID Mission Director

                          •   USAID Mission Director of Programs and Project Development

                          •   USAID Mission Controller

                          •   District Commander, Afghanistan Engineering District

                          •   Commander, Combined Security Transition Command –Afghanistan


                   Coalition Partners:

                          •   The SIGAR also met with several coalition partners, including the British
                              Commanding General, CTAG.




32 | Report to Congress
                                RECONSTRUCTION
                                  INTRODUCTION
                                FUNDS SUMMARY

               SPECTOR
             IN        GE
          AL             N
   CI




                                    ER
SPE




                                      AL
                         Reconstruction Funding Summary

                                              U.S. Funding
AFG




                               U.S. Appropriated Funds By


                                         N
                                         IO
                                     Implementing Agency
 HA




                                    CT
      N                            Audit of Financial Data
                                     U
          IS                       R
               TA                T
                     R E C O N S Contracts in Afghanistan
                  NReconstruction
                                  International Assistance




                                                  1
                                                  3
  3      RECONSTRUCTION FUNDS SUMMARY
                                                                                                                      Office of the SIGAR




         RECONSTRUCTION FUNDING SUMMARY

                   The U.S. Congress has appropriated $32.9 billion for the reconstruction of Afghanistan
                   since FY 2001. Other nations and international organizations have pledged a total of about
                   $25.4 billion for the reconstruction of Afghanistan during the same period. Currently, the
                   United States contribution accounts for about 60 percent of the $58.3 billion in delivered and
                   promised international aid to Afghanistan.



         U.S. FUNDING

                   U.S. appropriations for the reconstruction of Afghanistan peaked in 2007. Although
                   current 2009 numbers reﬂect a downward trend, funding is expected to increase if the 2009
                   supplemental budget request receives congressional approval.



                                 U.S. Appropriations Including Supplemental Requests by Fiscal Year
                                                   FY 2001-FY 2009 (in $ Millions)

                                 FY & Public Law Numbers                                      Funds Appropriated
                          2001 - (P.L. 107-20)                                                                $193
                          2002 - (P.L. 107-17)                                                                $939
                          2003 - (P.L. 108-7, P.L. 108-11)                                                    $985
                          2004 - (P.L. 108-106)                                                              $2,462
                          2005 - (P.L.108-287, P.L. 109-13)                                                  $4,902
                          2006 - (P.L. 109-102, P.L. 109-148, P.L.
                                                                                                             $3,534
                              109-234)
                          2007 - (P.L. 109-289, P.L. 110-28, P.L.
                              110-92,
                                                                                                            $10,043
                              P.L. 110-116, P.L. 110-137, P.L.
                              110-149)
                          2008 - (P.L. 110-161, P.L. 110-252)                                                $5,804
                          2009 - (P.L. 110-161, P.L. 110-252)                                                $4,073
                                                                Total                                       $32,935


                              Table 3-1 – Information in chart provided by the March 2009 SIGAR data call




34 | Report to Congress
Office of the SIGAR
                                                                              RECONSTRUCTION FUNDS SUMMARY
                                                                                                                                              3


          U.S. APPROPRIATED FUNDS BY
           IMPLEMENTING AGENCY


                      Three U.S. agencies—the Department of Defense (DoD), the U.S. Agency for International
                      Development (USAID), and the Department of State—have been apportioned most of the
                      U.S. funds appropriated for the reconstruction of Afghanistan. Together, DoD and USAID
                      manage over $27 billion. Other agencies, including the Departments of Agriculture, Justice,
                      and the U.S. Treasury have also received funding. Since 2003, more than $18.5 billion
                      (roughly 56 percent) of U.S reconstruction dollars have been apportioned to DoD.



                            U.S. Appropriated Funds for Afghanistan
                                                          FY 2001- FY 2009
                                                                 (in $millions)




                          Figure 3-1– Information provided to SIGAR by DoD, USAID, State, USDA, and others in March/April 2009




                                                                                                                                 April 30, 2009 | 35
  3      RECONSTRUCTION FUNDS SUMMARY
                                                                                                                   Office of the SIGAR




                   U.S. Funds Apportioned to the Department of Defense

                   DoD received approximately $3.4 billion in FY 2008 through P.L. 110-161 and P.L. 110-
                   252 and another $2.5 billion in FY 2009 through P.L. 110-161 and P.L. 110-252 for a total
                   of $5.9 billion in the last two years. Most of this money has gone into the Afghan Security
                   Forces Fund (ASFF) and the Commander’s Emergency Response Program (CERP).




                                   U.S. Department of Defense
                                                 FY 2001- FY 2009
                                                        (in $millions)




                                     Figure 3-2 – Information provided to SIGAR by DoD in March/April 2009



                   Afghan Security Forces Fund

                   The ASFF has received more than $15 billion, or about 80 percent of the $18.5 billion
                   apportioned to the DoD. The ASFF is used to build the Afghan National Army (ANA) and
                   the Afghan National Police (ANP). In addition to providing training and equipment for these
                   security forces, the reconstruction program has included infrastructure projects to build and
                   upgrade army and police facilities.




36 | Report to Congress
Office of the SIGAR
                                                                          RECONSTRUCTION FUNDS SUMMARY
                                                                                                                                      3


                      DoD is currently using the ASFF to support activities of the Combined Security Transition
                      Command-Afghanistan (CSTC-A), which is now responsible for the development of
                      the Afghanistan National Security Forces (ANSF). CSTC-A is a joint service, coalition
                      organization with military personnel from the United States, United Kingdom, Canada,
                      Poland, Albania, Germany, France, and Romania, as well as contracted civilian advisors,
                      mentors and trainers.xiii Under the control of United States Central Command, CSTC-A
                      receives funding through the Afghan Security Forces Fund (ASFF) to equip, train, and
                      sustain the ANSF.[i]

                      The objectives of the new U.S. strategy for Afghanistan are far more ambitious than the
                      goals established in the Afghanistan Compact for both the ANA and the ANP. The Compact
                      called for a 70,000-strong ANA and a 62,000-strong ANP by 2010. The new U.S. strategy
                      calls for the ANA to be increased to 134,000 and the ANP to 82,000 over the next 2 years.
                      The U.S. Government has committed approximately 4,000 additional troops to serve as
                      trainers to the ANP and ANA.


                      The Commander’s Emergency Response Program

                      CERP began in Iraq with funds recovered from Sadam Hussein’s Baath Party in the spring of
                      2003. The U.S. military used these seized assets for emergency projects to deliver essential
                      services to the Iraqi people. The President authorized the use of federal appropriations
                      to fund CERP projects on November 6, 2003. Since then, the U.S. Congress has steadily
                      increased funding for the program which is considered an important weapon in the ﬁght
                      against al Qaeda.

                      CERP was not created to replace or interfere with long-term recovery projects. According
                      to the 2006 Defense Authorization Act (P.L.109-163), “Congress intends that military units
                      not undertake development or infrastructure construction projects that are typically funded
                      by the State Department and USAID.” P.L.109-163 explicitly prohibits, among other things,
                      the use of CERP funds for providing goods, services, or funds to national armies, national
                      guard forces, border security forces, civil defense forces, infrastructure protection forces,
                      highway patrol units, police, special police, or intelligence or other security forces. Further,
                      the legislation stipulates that priority be given to projects that cost less than $500,000.

                      Under CERP, battalion commanders may spend up to $25,000 at their own discretion; task
                      force commanders are permitted spend up to $200,000 without prior approval. Approval
                      authority for individual CERP projects of $500,000 or more resides with the Commander
                      of the CERP Program Manager in Theater, i.e., Commander, Combined Joint Task Force
                      (CJTF) in Afghanistan.xiv Projects requiring more than $2 million of appropriated CERP
                      funds must be approved by the Commander of U.S. Central Command.




                                                                                                                         April 30, 2009 | 37
  3      RECONSTRUCTION FUNDS SUMMARY
                                                                                                                       Office of the SIGAR




                   According to the 2006 Defense Authorization Act, CERP may be used in the following
                   areas: water and sanitation, food production and distribution, agriculture/irrigation
                   (including canal clean-up), electricity, healthcare, education, telecommunications, economic,
                   ﬁnancial, and management improvements, transportation, rule of law and governance,
                   civic cleanup activities, civic support vehicles, repair of civic and cultural facilities, battle
                   damage/repair, condolence payments, hero payments, former detainee payments, protective
                   measures, other urgent humanitarian or reconstruction projects, and temporary contract
                   guards for critical infrastructure.

                   In 2006, under P.L.109-163, the ceiling for the entire CERP program was raised from $180
                   million to $500 million per ﬁscal year. Under P.L.110-181 Section 1205, the U.S. Congress
                   reauthorized CERP for an additional 2 years in 2008 and increased the funding ceiling to
                   $977.4 million per ﬁscal year.

                   Since 2005, nearly a billion dollars of CERP appropriations have been used to fund small-
                   scale, urgent, humanitarian relief and reconstruction projects in Afghanistan. The following
                   chart, based on the information provided to SIGAR by the Department of Defense illustrates
                   the use of CERP in Afghanistan.




38 | Report to Congress
Office of the SIGAR
                                                                          RECONSTRUCTION FUNDS SUMMARY
                                                                                                                                       3



                   CERP Obligations by Sector


    Sector                           2005            2006             2007             2008                2009          Totals
    Agriculture*                      $1,218,855     $2,045,156       $1,830,475      $22,880,722          $4,115,992    $32,091,200
    Battle Damage                            $0              $0               $0         $280,000            $80,000       $360,000
    Civic Clean-up Activities          $228,299              $0          $50,000          $56,000           $180,354       $514,653
    Civic Support Vehicles            $7,554,801     $2,941,398       $3,695,962         $587,000           $212,000     $14,991,161
    Economic, Financial &
                                      $3,149,916             $0         $641,129       $4,348,305           $500,000      $8,639,350
    Management Improvements
    Education                        $15,095,563     $8,757,083      $23,289,892      $50,313,860          $2,813,165   $100,269,563
    Electricity                       $1,540,501     $3,610,062       $6,128,273      $13,128,246                 $0     $24,407,082
    Food Production & Distribution     $316,381        $196,000                           $63,960           $357,099       $933,440
    Healthcare                        $3,458,305     $5,225,040       $6,019,871      $20,908,429          $2,163,113    $37,774,758
    Irrigation *                       $252,619      $3,567,698       $5,874,240              $0                  $0      $9,694,557
    Other Urgent Humanitarian or
                                       $132,078     $29,332,180       $1,272,658              $0           $3,287,877    $34,024,793
    Reconstruction Projects
    Protective Measures                      $0              $0         $244,408       $2,261,801           $376,489      $2,882,698
    Repair of Civic & Cultural
                                       $675,921        $614,985       $1,787,006       $8,130,931          $1,477,575    $12,686,418
    Facilities
    Repair of Damages Not
    Covered by the Foreign Claims            $0         $69,500               $0              $0                  $0        $69,500
    Act
    Rule of Law & Governance          $8,467,011      $6,536,118      $9,924,432      $11,991,835           $116,214     $37,035,610
    Telecommunications                $4,850,924     $4,854,193         $604,140       $1,381,570                 $0     $11,690,827
    Transportation                   $50,231,240   $144,286,777     $105,186,473     $268,567,104      $76,451,265      $644,722,859
    Water & Sanitation                $2,194,689     $2,851,843       $3,322,117      $15,690,978          $1,504,325    $25,563,952
    TOTALS                           $99,369,108   $214,890,039     $169,873,083     $420,592,749      $93,637,477      $998,362,456




                                     Table 3-2– Information provided to SIGAR by DoD in March/April 2009




                                                                                                                          April 30, 2009 | 39
  3      RECONSTRUCTION FUNDS SUMMARY
                                                                                                                   Office of the SIGAR




                   U.S. Funds Apportioned to the Department of State


                   The State Department received $378 million In FY 2008 and $196 million in FY 2009 for
                   Afghanistan Reconstruction for a total of $3.9 billion since 2001. About half of this funding
                   has gone into the State Department’s International Narcotics and Law Enforcement program.
                   Roughly one-quarter has gone to Foreign Military Financing.




                                           U.S. Department of State
                                                       FY 2001- FY 2009
                                                              (in $millions)




                                     Figure 3-3– Information provided to SIGAR by State in March/April 2009




40 | Report to Congress
Office of the SIGAR
                                                                            RECONSTRUCTION FUNDS SUMMARY
                                                                                                                                3


                      U.S. Funds Apportioned to USAID

                      USAID received approximately $1.7 billion in FY 2008 and $1.3 billion, of which $545
                      million has been received, in FY 2009 for Afghanistan’s reconstruction for a total of more
                      than $9 billion since 2001. Nearly two-thirds of this funding has gone into USAID’s
                      Economic Support Fund, which has paid for a wide variety of programs.




                                                                USAID
                                                        FY 2001- FY 2009
                                                               (in $millions)




                                        Figure 3-4– Information provided to SIGAR by USAID in March/April 2009




                                                                                                                   April 30, 2009 | 41
  3      RECONSTRUCTION FUNDS SUMMARY
                                                                                                                   Office of the SIGAR




                   U.S. Funds Apportioned to the
                   Department of Agriculture

                   The Department of Agriculture received $21 million in FY 2008 and $12 million in FY
                   2009 for a total of more than $379 million since 2001. Agriculture is crucial to the future
                   development of Afghanistan. Traditionally, over 50 percent of Afghanistan’s Gross
                   Domestic Product (GDP) and nearly 80 percent of its exports have come from agriculture.
                   In 2008, agricultural products made up 38 percent of the GDP.xv Nearly 80 percent of
                   Afghanistan’s estimated 31 million (June 2006) citizens remain dependent on agriculture for
                   their livelihood.xvi U.S. funding through the Department of Agriculture has gone primarily
                   into food aid, technical training, and a variety of programs to help Afghan farmers cultivate
                   marketable crops other than poppies.




                      U.S. Department of Agriculture
                                       FY 2001- FY 2009
                                             (in $millions)




                                     Figure 3-5– Information provided to SIGAR by USDA in March/April 2009




42 | Report to Congress
Office of the SIGAR
                                                                            RECONSTRUCTION FUNDS SUMMARY
                                                                                                                                      3




                      U.S. Funds Apportioned to Other
                      Agencies

                      The Department of Justice was the only other agency apportioned funding for reconstruction
                      in Afghanistan in FY 2008 and FY 2009. DOJ’s Drug Enforcement Agency received $41
                      million in FY 2008 and $19 million in FY 2009 for its anti-drug campaign.




                                                    Other Agencies
                                                      FY 2001- FY 2009
                                                             (in $millions)




                                    Figure 3-6– Information provided to SIGAR by HHS, DoJ, and DoT in March/April 2009




                                                                                                                         April 30, 2009 | 43
  3      RECONSTRUCTION FUNDS SUMMARY
                                                                                                                          Office of the SIGAR




         AUDIT OF FINANCIAL DATA
                   SIGAR is planning to conduct an audit to identify and track the allocations, obligations,
                   and expenditures of all U.S. funds used for Afghanistan’s reconstruction. As a result of
                   this audit, SIGAR will be able to provide detailed, reliable information on the use of U.S.
                   funds by ﬁscal year, as well as by agency account and reconstruction sector or program.
                   This audit will enable SIGAR to quickly identify reliable information on the amount of
                   U.S. funds spent on speciﬁc programs, such as on CERP. In addition, SIGAR will be able
                   to ascertain the total amount of funds obligated and spent by multiple U.S. agencies for
                   speciﬁc development sectors, including electricity, education, health, and security. The
                   chart below does not include unexpeded funds. SIGAR recognizes that there are a multitude
                   of reasons for the existence of unexpended funds. Analysis of these funds will be provided
                   in future reports.




                                                                                             Treasury
                                        DoD         State Dept    USAID          USDA                      Others        Totals
                                                                                               Dept
          FY 2006 Apportionment          $2,248           $306         $800           $57             $0       $136        $3,547
          FY 2006 Obligations            $2,248            $73         $774           $48             $0        $21        $3,165
          FY 2006 Disbursements          $2,076            $76         $672           $48             $0        $21        $2,893


          FY 2007 Apportionment          $7,903           $345       $1,574           $20             $1       $200       $10,043
          FY 2007 Obligations            $7,903            $84       $1,459             $9            $0        $21        $9,477
          FY 2007 Disbursements          $7,762            $76         $970             $9            $0        $14        $8,832


          FY 2008 Apportionment          $3,426           $378       $1,835           $21             $0       $144        $5,804
          FY 2008 Obligations            $2,955            $72       $1,116           $21             $0        $23        $4,186
          FY 2008 Disbursements          $2,611            $58         $536           $21             $0        $15        $3,240


          FY 2009 Apportionment          $2,456           $196       $1,301           $21             $0       $108        $4,073
          FY 2009 Obligations             $179             $66          $74           $12             $0            $3       $334
          FY 2009 Disbursements               $14           $1          $70             $0            $0            $1        $86



                            Table 3-3   Apportioned, Obligated and Disbursed Funds by Agency (in $ millions)–
                                        Information in chart provided by the March 2009 SIGAR data call




44 | Report to Congress
Office of the SIGAR
                                                                                       RECONSTRUCTION FUNDS SUMMARY
                                                                                                                                                     3


          RECONSTRUCTION CONTRACTS IN AFGHANISTAN

                      According to the data provided by Departments of Defense and State, and the U.S.
                      Agency for International Development, approximately $13.6 billion has been obligated
                      as of January 2009 for about 950 reconstruction contracts in Afghanistan. SIGAR will be
                      examining this data more closely to develop a plan to conduct a series of audits of these
                      contracts starting later this year.


                                   Agency                          Number of Contracts                         Amount Obligated*
                       Department of Defense                                           813                                       $2.7
                       Department of State                                                3                                      $5.1
                       USAID                                                           134                                       $5.8
                                                 Totals                                950                                     $13.6

                      Table 3-4    Afghanistan Reconstruction Contracts, by Agency (in $ billions)xvii
                                   *For our purposes we have used the term obligated to represent the award or value amount
                                    of the contracts identified by the agencies. Contracts provided by USAID are valued at $100,000
                                    or more.




          INTERNATIONAL ASSISTANCE

                      The international community, other than the United States, has pledged approximately
                      $25 billion for the reconstruction of Afghanistan since 2002. To date, over 70 countries
                      (including the United States and 19 other members of NATO), the UN, the World Bank, the
                      International Monetary Fund (IMF), and other international organizations have pledged a
                      total of $58.3 billion in economic assistance for Afghanistan.

                      International Assistance January 2002 - March 2011
                      Pledges received from 39 nations, the United Nations, and the IMF and World Bank

                       Donor                                                         Pledged
                       USA**                                                          $32,953
                       NATO,                                                          $10,500
                       Others                                                         $14,794
                       Total US, NATO and Others                                      $58,247

                       Table 3-5    International Assistance (in $ millions)
                                    Information in chart provided by the March 2009 SIGAR data callxviii




                                                                                                                                        April 30, 2009 | 45
  3      RECONSTRUCTION FUNDS SUMMARY
                                                                                                                    Office of the SIGAR




                   The Joint Coordination and Monitoring Board (JCMB)

                   Improved cooperation and coordination are necessary to take full advantage of all the funds
                   provided to Afghanistan. The Afghanistan government and the international community
                   established the JCMB in 2006 to coordinate and oversee the implementation of the
                   Afghanistan Compact. The Senior Economic Advisor to the President of Afghanistan
                   and the UN Special Representative of the Secretary General serve as co-chairs of the
                   JCMB, which is constituted for a period a ﬁve years from April 2006-March 2011. The
                   28 members on the board include 7 representatives of the GIRoA and 21 representatives
                   of the international community. The JCMB has established a secretariat and is currently
                   conducting a strategic review to support the integrations of the ANDS with the Afghanistan
                   Compact objectives. SIGAR plans to meet with members of the JCMB during the next
                   quarter to discuss what it is going to do to enhance international coordination, ensure that
                   international funds are optimized for the development of Afghanistan, and reduce the risks
                   of waste, fraud and abuse. The discussions will lead to audits to evaluate the coordination of
                   development assistance to Afghanistan.




46 | Report to Congress
                           RECONSTRUCTION
                             INTRODUCTION
                        OVERSIGHT SUMMARY

               SPECTOR
             IN        GE
          AL             N
   CI




                                 ER
SPE



                                            Introduction




                                   AL
                         Oversight Reports Completed
                                since January 30, 2009
AFG




                                   SIGAR Hard Lessons


                                       N
                                       IO
                           Planned Oversight Reports
 HA




                                 CT
      N                            U
          IS                     R
               TA              T
                  N   RECONS




                                                1
                                                4
  4      RECONSTRUCTION OVERSIGHT SUMMARY
                                                                                                                         Office of the SIGAR




         INTRODUCTION

                   SIGAR’s 2nd Quarterly Report to Congress provided a summary of the reports issued by
                   the Inspectors General for Departments of Defense and State, for USAID, and by the GAO
                   since 2003. During this reporting period, GAO released four reports. The Special Inspector
                   General for Iraq Reconstruction (SIGIR) presented its lessons learned capping report—
                   Hard Lessons: The Iraq Reconstruction Experience—to the U.S. Congress and SIGAR
                   is considering its applicability to the reconstruction effort in Afghanistan. The Inspectors
                   General for the Departments of State and Defense, for USAID, and GAO are currently
                   working on several audits relating to reconstruction in Afghanistan.




         OVERSIGHT REPORTS COMPLETED
         SINCE JANUARY 30, 2009

                   GAO has issued two reports and a congressional testimony concerning reconstruction
                   programs in Afghanistan. GAO issued a fourth report, “Afghanistan: Key Issues for
                   Congressional Oversight,” on April 21, just as the SIGAR Quarterly Report to Congress
                   was going to press.


                                                                                                                REPORT
                 AGENCY                                  TITLE                                    DATE
                                                                                                                NUMBER
                           Afghanistan Security: Lack of Systematic Tracking Raises
                   GAO     Significant Accountability Concerns about Weapons Provided to       January 2009    GAO-09-267
                           Afghan National Security Forces
                           U.S. Programs to Further Reform Ministry of Interior and National
                   GAO     Police Challenged by Lack of Military Personnel and Afghan          March 2009      GAO-09-280
                           Cooperation
                           Iraq and Afghanistan; Security, Economic, and Governance
                   GAO     Challenges to Rebuilding Efforts Should Be Addressed in U.S.        March 2009     GAO-09-476T
                           Strategies
                   GAO     Afghanistan: Key Issues for Congressional Oversight                  April 2009    GAO-09-473SP

                                                 Table 4-1    Completed GAO Oversight Reports




48 | Report to Congress
Office of the SIGAR
                                                                  RECONSTRUCTION OVERSIGHT SUMMARY
                                                                                                                                4


                      Afghanistan Security: Lack of Systemic Tracking Raises Significant Accountability
                      Concerns about Weapons Provided to Afghan National Security Forces

                      GAO conducted this review to determine whether the Department of Defense (DoD) could
                      account for weapons provided by the international community to the Afghan National
                      Security Forces (ANSF) and ensure that the ANSF could also safeguard and account these
                      weapons.

                      The Department of Defense, through its Combined Security Transition Command-
                      Afghanistan (CSTC-A) and with the Department of State, directs the international effort to
                      train and equip the ANSF. In support of this mission, the U.S. Army Security Assistance
                      Command (USASAC) spent approximately $120 million to procure small arms and light
                      weapons for the ANSF. International donors also provided weapons for the ANSF.

                      The GAO found that DoD had not established clear guidance for U.S. personnel to follow
                      when obtaining, transporting, and storing weapons for the ANSF. As a result, the GAO
                      report concluded that DoD could not completely account for all ANSF weapons under U.S.
                      control. GAO estimated that USASAC and CSTC-A did not maintain complete records for
                      about 87,000—or 36 percent—of the 242,000 weapons procured by the United States and
                      shipped to Afghanistan. According to the GAO, USASAC and CSTC-A could not provide
                      serial numbers for about 46,000 of these weapons. CSTC-A did not maintain records on the
                      location or disposition of an estimated 41,000 weapons with recorded serial numbers. Nor
                      did CSTC-A have reliable records, including serial numbers, for about 135,000 weapons
                      obtained for the ANSF from 21 other nations between June 2002 and June 2008 GAO found
                      that accountability lapses that occurred throughout the supply chain were due to a lack of
                      clear direction and stafﬁng shortages.

                      The GAO concluded that ANSF units could not fully safeguard and account for these
                      weapons despite the CSTC-A training efforts. Consequently, the GAO said there is a serious
                      risk that weapons provided by the CSTC-A could be stolen or lost.

                      The GAO recommended that the Secretary of Defense:

                           •    Establish clear accountability procedures, including serial number tracking and
                                routine physical inventories, for weapons in U.S. control and custody

                           •    Direct CSTC-A to assess and verify each ANSF unit’s capacity to safeguard and
                                account for weapons

                           •    Provide adequate resources to CSTC-A to train, mentor, and assess ANSF in
                                equipment accountability matters

                      DoD concurred with the GAO’s recommendations, but did not state when the shortcomings
                      identiﬁed in the report would be addressed.



                                                                                                                   April 30, 2009 | 49
  4      RECONSTRUCTION OVERSIGHT SUMMARY
                                                                                                                    Office of the SIGAR




                   Afghanistan Security: U.S. Programs to Further Reform Ministry of Interior and
                   National Police Challenged by Lack of Military Personnel and Afghan Cooperation

                   The United States has invested more than $6.2 billion to assist the Afghan Ministry of
                   Interior (MOI) and the Afghan National Police (ANP). In this report GAO reviewed the
                   status of U.S. efforts to help Afghanistan restructure its MOI, retrain ANP units, screen MOI
                   and ANP personnel, and enhance MOI and ANP pay systems. The purpose of these reforms
                   is to ensure that the MOI and ANP have professional staff who can manage a national
                   police force. CSTC-A and DoS lead U.S. efforts to enhance MOI and ANP organizational
                   structures, leadership abilities, and pay systems.

                   The GAO found that the U.S. agencies have achieved their goals of restructuring the MOI
                   and ANP, modifying police wages, and planning a reorganization of MOI headquarters.
                   The MOI has cut its ofﬁcer corps from 17,800 to about 9,000, reduced the percentage of
                   high-ranking ofﬁcers, and increased pay for all ranks. The MOI, with U.S. support, is also
                   planning to reorganize its headquarters.

                   According to GAO, CSTC-A has begun retraining ANP units through its Focused District
                   Development (FDD) program. This program is intended to address corruption at the district
                   level. DoD status reports indicate that the FDD program is producing promising results.
                   DoD reported that 19 percent of the units retrained by this program are now capable of
                   conducting missions, 25 percent are capable of doing so with outside support, 31 percent are
                   capable of partially doing so with outside support, and 25 percent are not capable. CSTC-A
                   would like to extend the FDD and similar programs across Afghanistan by 2010, but it is
                   hampered by a shortage of military personnel. DoD reported that it needed an additional
                   1,500 military personnel to expand the police development programs.

                   GAO found that while both MOI and ANP ofﬁcers have been screened by DoD and DoS,
                   the extent of the screening is unclear because DoS did not systematically compile records
                   of its efforts. Intended to improve the professionalism and integrity of the ofﬁcer corps, the
                   screening effort included testing conducted by CSTC-A, and background checks performed
                   by DoS. CSTC-A reported that at least 9,797—or 55 percent—of the 17,800 ofﬁcers who
                   took the test passed. DoS could not provide GAO with statistical results of the background
                   checks because it did not systematically compile its records.

                   The U.S.-backed effort to reform the pay system is intended to validate MOI and ANP
                   personnel rosters and ensure the reliable distribution of wages. GAO found that despite
                   progress in both areas, these efforts continue to face challenges because of limited ANP
                   cooperation and a shortage of banks. U.S. contractors have validated almost 47,400 MOI
                   and ANP personnel. However, due to a lack of cooperation from some ANP commanders,
                   these contractors have been unable to validate about 29,400 personnel, who have been paid
                   in part by $230 million in U.S. contributions to a UN trust fund.




50 | Report to Congress
Office of the SIGAR
                                                                  RECONSTRUCTION OVERSIGHT SUMMARY
                                                                                                                                 4


                      The GAO found that 97 percent of all reported MOI and ANP personnel were enrolled in
                      an electronic payroll system, and 58 percent had signed up to have their salaries deposited
                      directly into their bank accounts. However, about 40 percent of ANP personnel lack easy
                      access to banks.

                      The GAO recommended that the Secretaries of Defense and State do the following:

                           •    Provide dedicated personnel to support the creation of additional police mentor
                                teams to expand and complete the FDD program

                           •    Consider provisioning U.S. contributions for police wages to reﬂect the extent to
                                which U.S. agencies have validated MOI and ANP personnel

                      DoD concurred with the ﬁrst recommendation and DoS said it was prepared to recruit
                      additional personnel. DoS concurred with the second recommendation but DoD said it
                      would unduly penalize MOI. GAO maintains that this recommendation could encourage
                      the ANP to cooperate more fully and also help ensure that only legitimate personnel receive
                      U.S. subsidized wages.




                                                                                                                    April 30, 2009 | 51
  4      RECONSTRUCTION OVERSIGHT SUMMARY
                                                                                                                   Office of the SIGAR




         SIGIR HARD LESSONS

                   On February 02, 2008 the Special Inspector General for Iraq Reconstruction (SIGIR)
                   presented its lessons learned capping report—Hard Lessons: The Iraq Reconstruction
                   Experience—to Congress. The report identiﬁed the following 13 “hard lessons” learned
                   from the U.S. effort to rebuild Iraq:

                          1.    Security is necessary for large-scale reconstruction to succeed.
                          2.    Developing the capacity of people and systems is as important as bricks and
                                mortar reconstruction.
                          3.    Soft programs serve as an important complement to military operations in
                                insecure environments.
                          4.    Programs should be geared to indigenous priorities and needs.
                          5.    Reconstruction is an extension of political strategy.
                          6.    Executive authority below the President is necessary to ensure the effectiveness
                                of contingency relief and reconstruction operations.
                          7.    Uninterrupted oversight is essential to ensuring taxpayers values in contingency
                                operations.
                          8.    An integrated management structure is necessary to ensure effective inter-
                                agency reconstruction efforts.
                          9.    Outsourcing management to contractors should be limited because it
                                complicates lines of authority in contingency reconstruction operations.
                          10.   The U.S. Government should develop new wartime contracting rules that allow
                                for greater ﬂexibility.
                          11.   The U.S. Government needs a new human-resource management system capable
                                of meeting the demands of a large scale contingency relief and reconstruction
                                operations.
                          12.   The U.S. Government must strengthen its capacity to manage the contractors
                                that carry out reconstruction work in contingency relief and reconstruction
                                operations.
                          13.   Diplomatic, development, and area expertise must be expanded to ensure a
                                sufﬁcient supply of qualiﬁed civilian personnel in contingency reconstruction.

                   As part of its data request issued in February 2009, SIGAR has asked implementing agencies
                   to consider if these lessons were applicable to the reconstruction effort in Afghanistan.
                   The agencies responded that the most important lesson was that uninterrupted oversight is
                   essential to ensure that taxpayer dollars are spent as intended in contingency operations.



52 | Report to Congress
Office of the SIGAR
                                                                    RECONSTRUCTION OVERSIGHT SUMMARY
                                                                                                                                            4

          PLANNED OVERSIGHT AUDITS


                      AGENCY                                     AUDIT TITLE                                   DATE INITIATED
                      State OIG        Review of Xe (formerly known as Blackwater) WPPS in Afghanistan          February 2009
                      State OIG        DS Management of WPPS in Afghanistan                                     February 2009
                      State OIG        Effectiveness of Counter Narcotics Programs in Afghanistan               February 2009


                                  Table 4-2     Department of State Office of Inspector General, On-Going Audits



                       AGENCY                                     AUDIT TITLE                                   DATE INITIATED
                                       Contract Administration of the Prime Vendor Program for Subsistence
                        DoD IG                                                                                   February 2009
                                       in Support of Operation Enduring Freedom
                                       Joint Contracting Command Iraq/Afghanistan Transition to the
                        DoD IG                                                                                   January 2009
                                       Standard Procurement System-Contingency
                                       Management and Accountability of Property Purchased at Regional
                        DoD IG                                                                                  September 2008
                                       Contracting Centers in Afghanistan
                        DoD IG         Contracts Supporting the DoD Counter Narcoterrorism Program                 July 2008
                                       Selection of Modes for Transporting Materiel in Support of Operations
                        DoD IG                                                                                     July 2008
                                       in Iraq and Afghanistan
                        DoD IG         Afghanistan Security Forces Fund – Phase III                             December 2007
                                       Funds Appropriated for Afghanistan and Iraq Processed through the
                        DoD IG                                                                                     June 2007
                                       Foreign Military Trust Fund
                                       Operations and Maintenance Funds Used for Global War on Terror
                        DoD IG                                                                                     June 2007
                                       Military Construction Contracts
                                       Assessment of the Accountability and Control of Arms, Ammunition,
                        DoD IG                                                                                   February 2009
                                       and Explosives (AA&E) Provided to the Security Forces of Afghanistan
                                       Assessment of U.S. and Coalition Plans to Train, Equip, and Field the
                        DoD IG                                                                                   February 2009
                                       Expanded Afghan National Army
                                       Assessment of the U.S. and Coalition Efforts to Develop the Medical
                        DoD IG                                                                                  December 2008
                                       Sustainment Capability of the Afghan national Security Forces


                                    Table 4-3     Department of Defense Inspector General, On-Going Audits



                      AGENCY                                     AUDIT TITLE                                   DATE INITIATED
                        GAO           Contracting in Iraq and Afghanistan                                      November 2008
                        GAO           Iraq / Afghanistan Contractor Oversight                                   February 2009


                                    Table 4-4     Government Accountability Office (GAO), On-Going Audits




                                                                                                                               April 30, 2009 | 53
                                         APPENDICES
                                      INTRODUCTION


               SPECTOR
             IN        GE
          AL             N
   CI




                                     ER
SPE



               Cross-Reference to Reporting Requirements




                                       AL
                      U.S. Government Appropriated Funds

                                               Planned Audits
AFG




                                          N
                                          IO
                                      Planned Inspections
 HA




                                     CT
      N                                        Hotline Posters
          IS
               TA                T   RU
                  N   RECONS                        Acronyms

                                                    Endnotes




                                                     1
Office of the SIGAR
                                                                                                                                                                   APPENDICES
                                                                                                                                                                                              A
         APPENDIX A:
         CROSS-REFERENCE TO REPORTING REQUIREMENTS

                      This appendix cross-references the pages of this report to the quarterly reporting and related
                      requirements under SIGAR’s enabling legislation, the National Defense Authorization Act for
                      Fiscal Year 2008, Pub. L. No. 110-181, § 1229 (Table A.1), and to the reporting requirements
                      prescribed for semiannual reporting by inspectors general, under the Inspector General Act of
                      1978, as amended, (5 U.S.C. App. 3) (Table A.2).


                          Section                                 SIGAR Enabling Language                                            SIGAR Action                        Page Number
                                                                                                    Supervision
                                                 The Inspector General shall report directly to, and be under the
                                                                                                                      Report to the Secretary of State and the
                Section 1229(e)(1)               general supervision of, the Secretary of State and the Secretary                                                     • All
                                                                                                                      Secretary of Defense.
                                                 of Defense.
                                                                                                       Duties
                                                 It shall be the duty of the Inspector General to conduct,
                                                 supervise, and coordinate audits and investigations of the           Review appropriated/ available funds
                                                 treatment, handling, and expenditure of amounts appropriated or      Review programs, operations, contracts          • Pg 10-32
                Section 1229(f)(1)
                                                 otherwise made available for the reconstruction of Afghanistan       using appropriated /donated funds               • Appendices C & D
                                                 and of the programs, operations, and contracts carried out
                                                 utilizing such funds, including—
                                                 The oversight and accounting of the obligation and expenditure       Review obligations and expenditures of          • Pg 34-46
                Section 1229(f)(1)(A)
                                                 of such funds;                                                       appropriated/donated funds.                     • Appendix B
                                                 The monitoring and review of reconstruction activities funded by     Review reconstruction activities funded by      • Pg 34-46
                Section 1229(f)(1)(B)
                                                 such funds;                                                          appropriations and donations                    • Appendix B
                                                                                                                      Review contracts using appropriated &
                Section 1229(f)(1)(C)            The monitoring and review of contracts funded by such funds;                                                         • Note 1 (website)
                                                                                                                      donated funds.
                                                 The monitoring and review of the transfer of such funds and
                                                 associated information between and among departments,                Review internal and external transfers of       • Pg 34-46
                Section 1229(f)(1)(D)
                                                 agencies, and entities of the United States, and private and         appropriated /donated funds.                    • Appendix B
                                                 nongovernmental entities;
                                                 The maintenance of records on the use of such funds to facilitate
                Section 1229(f)(1)(E)                                                                                 Maintain audit records.                         • Appendix B
                                                 future audits and investigations of the use of such funds
                                                 The monitoring and review of effectiveness of USG coordination
                                                 with Gov’ts of Afghanistan & of other donor countries regarding
                Section 1229(f)(1)(F)                                                                                 Monitoring and review as described              • In process
                                                 implementation of the Afghanistan Compact and the Afghanistan
                                                 Nat’l Development Strategy;
                                                                                                                                                                      • No such
                                                 The investigation of overpayments . . . and potential unethical
                                                                                                                      Conduct and reporting of investigations as        investigations
                Section 1229(f)(1)(G)            or illegal actions of USG employees, contractors, or affiliated
                                                                                                                      described                                         concluded or
                                                 entities, and the referral of reports, as necessary, to DoJ . . .
                                                                                                                                                                        reported to DoJ
                Section 1229(f)(2)               The Inspector General shall establish, maintain, and oversee
                                                                                                                      Establish, maintain, and oversee systems,
                                                 such systems, procedures, and controls as the Inspector General                                                      • All
                                                                                                                      procedures, and controls
                                                 considers appropriate to discharge the duty.
                Section 1229(f)(3)               In addition, the Inspector General shall also have the duties and
                                                 responsibilities of inspectors general under the Inspector General   Duties as specified in IG Act                   • All
                                                 Act of 1978
                Section 1229(f)(4)

                (NOTE: The statutory
                requirements of this             The Inspector General shall coordinate with, and receive the
                subsection are uniquely          cooperation of, each of the following: The Inspector General
                                                                                                                                                                      • Section IV
                applicable to SIGAR relative     of the Department of State, The Inspector General of the             Coordination with IGs of State, DoD, & USAID.
                                                                                                                                                                      • Pg 48-53
                to the requirements applicable   Department of Defense, and The Inspector General of the United
                more generally to IGs under      States Agency for International Development.
                the IG Act of 1978, as
                amended)


                                                                            Federal Support and Other Resources
                                        Table A-1           Cross-Reference    to SIGAR Quarterly Reporting Requirements
                                                            under P. L. No. 110-181, § 1229
                                                                                                                                                                                April 30, 2009 | 55
 A       APPENDICES
                                                                                                                                                                                 Office of the SIGAR




                     Section                              SIGAR Enabling Language                                              SIGAR Action                        Page Number
                                         Upon request of the Inspector General for information or
                                         assistance from any department, agency, or other entity of the
                                         Federal Government, the head of such entity shall, insofar as is
           Section 1229(h)(5)(A)                                                                                Expect support as requested.                     • All
                                         practicable and not in contravention of any existing law, furnish
                                         such information or assistance to the Inspector General, or an
                                         authorized designee.
                                                                                              Reports
                                         Not later than 30 days after the end of each fiscal-year quarter,
                                         the Inspector General shall submit to the appropriate committees
                                         of Congress a report summarizing for the period of that quarter
                                         and, to the extent possible, the period from the end of such
                                         quarter to the time of the submission of the report, the activities    Report – 30 days after the end of each
                                         of the Inspector General and the activities under programs             calendar quarter. Summarize activities of        • All
           Section 1229(i)(1)
                                         and operations funded with amounts appropriated or otherwise           IG. Detailed statement of all obligations,       • Appendix B
                                         made available for the reconstruction of Afghanistan. Each             expenditures, and revenues.
                                         report shall include, for the period covered by such report, a
                                         detailed statement of all obligations, expenditures, and revenues
                                         associated with reconstruction and rehabilitation activities in
                                         Afghanistan, including the following –
                                                                                                                Obligations and expenditures of appropriated/    • Pg 34-46
           Section 1229(i)(1)(A)         Obligations and expenditures of appropriated/donated funds.
                                                                                                                donated funds.                                   • Appendix B
                                         A project-by-project and program-by-program accounting of
                                         the costs incurred to date for the reconstruction of Afghanistan,
                                                                                                                Project-by-project and program-by-program
                                         together with the estimate of the Department of Defense,                                                                • Pg 34-46
           Section 1229(i)(1)(B)                                                                                accounting of costs. List unexpended funds for
                                         the Department of State, and the United States Agency for                                                               • Appendix B
                                                                                                                each project or program.
                                         International Development, as applicable, of the costs to
                                         complete each project and each program.
                                         Revenues attributable to or consisting of funds provided by
                                         foreign nations or international organizations, and any obligations    Revenues, obligations, and expenditures of
           Section 1229(i)(1)(C)                                                                                                                                 • Pg 45
                                         or expenditures of such revenues to programs and projects              donor funds.
                                         funded by any U.S government department or agency.
                                         Revenues attributable to or consisting of foreign assets seized
                                         or frozen that contribute to programs and projects funded by any       Revenues, obligations, and expenditures of
           Section 1229(i)(1)(D)                                                                                                                                 • In process
                                         U.S. government department or agency, and any obligations or           funds from seized or frozen assets
                                         expenditures of such revenues.
                                         Operating expenses of agencies or entities receiving amounts
                                                                                                                Operating expenses of agencies or any            • Pg 34-46
           Section 1229(i)(1)(E)         appropriated or otherwise made available for the reconstruction
                                                                                                                organization receiving appropriated funds        • Appendix B
                                         of Afghanistan.
                                         In the case of any contract, grant, agreement, or other funding
                                         mechanism described in paragraph (2):
                                           • The amount of the contract or other funding mechanism.
                                           • A brief discussion of the scope of the contract or other funding
                                             mechanism.
                                           • A discussion of how the contracting department or gency
           Section 1229(i)(1)(F)                                                                                Describes contract details                       • In process
                                             identified, and solicited offers from potential contractors to
                                             perform the contract, together with the list of the potential
                                             contractors that were issued solicitations for the offers.
                                           • The justification and approval documents on which was based
                                             the determination to use procedures other than procedures
                                             that provide for full and open competition.
                                         The Inspector General shall publish each report on a publically
                                                                                                                                                                 • www.sigar.mil
                                         available Internet website each report under paragraph (1) of this
           Section 1229(i)(3)                                                                                   Publish report as directed.                      • Dari and Pashtu
                                         subsection in English and other languages the Inspector General
                                                                                                                                                                   in process
                                         determines are widely used and understood in Afghanistan.
                                         Each report under this subsection shall be submitted in
           Section 1229(i)(4)            an unclassified format. Unclassified if General considers it           Publish report as directed                       • In process
                                         necessary.




                                   Table A-1 (continued)               Cross-Reference to SIGAR Quarterly Reporting Requirements
                                                                       under P. L. No. 110-181, § 1229



56 | Report to Congress
Office of the SIGAR
                                                                                                                                                               APPENDICES
                                                                                                                                                                                          A
                                                                                                                                                                       Page #
                          Section               Statute (Inspector General Act of 1978)                                      SIGAR Action
                                                                                                                                                                   (or Reference)
                                                                                                             • Extract pertinent information from SWA/JPG
                                                                                                                                                                 • Section IV
                                                                                                               member reports
                                                                                                                                                                 • See letters of
                Section 5(a)(1)        “Description of significant problems, abuses, and deficiencies... ”   • List problems, abuses, and deficiencies
                                                                                                                                                                   Inquiry at www.
                                                                                                               from SIGAR audit reports, investigations, and
                                                                                                                                                                   sigar.mil
                                                                                                               inspections
                                                                                                             • Extract pertinent information from SWA/JPG        • Section IV
                                       “Description of recommendations for corrective action…with              member l reports                                  • See letters of
                Section 5(a)(2)
                                       respect to significant problems, abuses, or deficiencies...”          • List recommendations from SIGAR audit               inquiry at www.
                                                                                                               reports                                             sigar.mil
                                       “Identification of each significant recommendation described in
                                                                                                             • List all instances of incomplete corrective
                Section 5(a)(3)        previous semiannual reports on which corrective action has not                                                            • In process
                                                                                                               action from previous semiannual reports
                                       been completed...”
                                                                                                             • Extract pertinent information from SWA/JPG
                                       “A summary of matters referred to prosecutive authorities and the       member reports                                    • Section IV
                Section 5(a)(4)
                                       prosecutions and convictions which have resulted...”                  • List SIGAR Investigations that have been          • Pg 48-53
                                                                                                               referred.
                                                                                                             • Extract pertinent information from SWA/JPG
                                       “A summary of each report made to the [Secretary of Defense]            member reports.
                                                                                                                                                                 • Section IV
                Section 5(a)(5)        under section 6(b)(2)... ” (instances where information requested     • List instances in which information was
                                                                                                                                                                 • Pg 48-53
                                       was refused or not provided)                                            refused SIGAR auditors, investigators, or
                                                                                                               inspectors
                                                                                                                                                                 • Section IV
                                       “A listing, subdivided according to subject matter, of each audit                                                         • No reports finalized
                                                                                                             • Extract pertinent information from SWA/JPG
                                       report, inspection report and evaluation report issued...” showing                                                          during reporting
                Section 5(a)(6)                                                                                member reports
                                       dollar value of questioned costs and recommendations that funds                                                             period; for reports
                                                                                                             • List SIGAR reports
                                       be put to better use.                                                                                                       in progress see
                                                                                                                                                                   www.sigar.mil
                                                                                                                                                                 • Section IV
                                                                                                             • Extract pertinent information from SWA/JPG
                                                                                                                                                                 • A full list of sig-
                                                                                                               member reports
                Section 5(a)(7)        “A summary of each particularly significant report.. ”                                                                      nificant reports can
                                                                                                             • Provide a synopsis of the significant SIGAR
                                                                                                                                                                   be found at:
                                                                                                               reports.
                                                                                                                                                                   www.sigar.mil
                                                                                                             • Extract pertinent information from SWA/JPG
                                                                                                                                                                 • See reports of
                                       “Statistical tables showing the total number of audit reports and       member reports
                Section 5(a)(8)                                                                                                                                   SWA/JPG members
                                       the total dollar value of questioned costs... ”                       • Develop statistical tables showing dollar value
                                                                                                                                                                 • In Process
                                                                                                               of questioned cost from SIGAR reports
                                                                                                             • Extract pertinent information from SWA/JPG
                                       “Statistical tables showing the total number of audit reports,
                                                                                                               member reports                                    • See reports of
                                       inspection reports, and evaluation reports and the dollar
                Section 5(a)(9)                                                                              • Develop statistical tables showing dollar value    SWA/JPG members
                                       value of recommendations that funds be put to better use by
                                                                                                               of funds put to better use by management          • In Process
                                       management...”
                                                                                                               from SIGAR reports
                                       “A summary of each audit report, inspection report, and
                                       evaluation report issued before the commencement of the               • Extract pertinent information from SWA/JPG
                                       reporting period for which no management decision has been              member reports                                    • See reports of
                Section 5(a)(10)       made by the end of reporting period, an explanation of the            • Provide a synopsis of SIGAR audit reports in       SWA/JPG members
                                       reasons such management decision has not been made, and                 which recommendations by SIGAR are still          • None
                                       a statement concerning the desired timetable for achieving a            open
                                       management decision...”
                                                                                                             • Extract pertinent information from SWA/JPG
                                                                                                               member reports                                    • See reports of
                                       “A description and explanation of the reasons for any significant
                Section 5(a)(11)                                                                             • Explain SIGAR audit reports in which signifi       SWA/JPG members
                                       revised management decision...”
                                                                                                               cant revisions have been made to manage           • None
                                                                                                               ment decisions
                                                                                                                                                                 • See reports of
                                                                                                             • Extract pertinent information from SWA/JPG
                                                                                                                                                                  SWA/JPG members
                                       “Information concerning any significant management decision             member reports
                Section 5(a)(12)                                                                                                                                 • No disputed
                                       with which the Inspector General is in disagreement...”               • Explain SIGAR audit reports in which SIGAR
                                                                                                                                                                   decisions during
                                                                                                               disagreed with management decision.
                                                                                                                                                                   the reporting period
                                                                                                                                                                 • See reports of
                                       “Information described under Section 804 [sic] of the Federal         • Extract pertinent information from SWA/JPG
                                                                                                                                                                  SWA/JPG members
                                       Financial Management Improvement Act of 1996...” (instances             member reports
                Section 5(a)(13)                                                                                                                                 • No disputed
                                       and reasons when an agency has not met target dates                   • Provide information where management has
                                                                                                                                                                   decisions during
                                       established in a remediation plan)                                      not met targets from a remediation plan.
                                                                                                                                                                   the reporting period


                        Table A-2   Cross-Reference to Semiannual Reporting Requirements for IGs more generally
                                    under section 5 of the IG Act of 1978, as amended (5 U.S.C. App. 3)
                                                                                                                                                                            April 30, 2009 | 57
 A       APPENDICES
                                                                                                                                           Office of the SIGAR




         APPENDIX B:
         U.S. GOVERNMENT APPROPRIATED FUNDS

                          This annex provides quick reference to the appropriated funds that support this quarter’s
                          report. These charts summarize the Afghanistan reconstruction budget and execution
                          information developed by various government agencies. This annex reviews all execution
                          information provided by the agencies by program objective, accounts, and the years in which
                          the activity of each account took place.

                          Table 1 presents U.S. funds appropriated by year to Afghanistan reconstruction efforts as
                          they support the fundamental objectives of the Foreign Assistance Framework. Each major
                          activity is listed by its funding program and its corresponding program objective. Data for
                          these charts was provided by the Afghanistan Interagency Bi-monthly Fund Status Review
                          Group.xix




                                                                                                                       FY 2009
                                                                                                  FY 2007    FY 2008             Program
           Program             FY 2001   FY 2002     FY 2003      FY 2004    FY 2005   FY 2006                         Bridge
                                                                                                  Supp       Supp                Objective
           Objectives          Actual    Actual      Actual       Actual     Actual    Actual                          Supp
                                                                                                  Actual     Actual              Totals
                                                                                                                       Actual
           Peace and
                               $0        $12         $176         $404       $1,892    $2,248     $7,903     $3,425    $2,456    $18,519
           Security
           Governing
           Justly and          $46       $376        $321         $833       $1,338    $418       $524       $482      $285      $4,624
           Democratically
           Investing in
           People and
                               $42       $501        $456         $1,181     $1,604    $786       $1,574     $1,835    $1,301    $9,280
           Economic
           Growth
           Humanitarian
                               $104      $48         $28          $39        $50       $57        $20        $21       $12       $379
           Assistance
           Program
                               $0        $5          $5           $18        $24       $20        $201       $41       $19       $133
           Support All
           Annual Totals       $192      $939        $985         $2,462     $4,902    $3,534     $10,043    $5,804    $4,073    $32,935




                                         Table B-1        Total Funds Appropriated Per Year by Program Objective ($ millions)–
                                                          Information in chart provided by the March 2009 SIGAR data call




58 | Report to Congress
Office of the SIGAR
                                                                                                                   APPENDICES
                                                                                                                                     A



                      Table 2 displays fund allocations from the Ofﬁce of Management and Budget to each agency
                      in support of Afghanistan reconstruction by ﬁscal year.




                                    Figure B-1   Percentage of Appropriated Spending By Major Agency–
                                                 Information in chart provided by the March 2009 SIGAR data call




                      The following table outlines funding allocations made by each agency to appropriate funds
                      to speciﬁc accounts. SIGAR uses this data to track and report major changes to the funding
                      streams currently established to support Afghanistan Reconstruction efforts. It includes
                      every 1st level sub-allocation account used in the Afghanistan reconstruction effort since
                      2001.




                                                                                                                       April 30, 2009 | 59
                                  Table B-2
                                                                                                                                                                                                                       A
                          Annual Funding Program Update by Agency Accounts–
                           Information in chart provided by the March 2009 SIGAR data call




60 | Report to Congress
                             ACCOUNTS           AGENCY        FY 2001        FY 2002        FY 2003        FY 2004        FY 2005        FY 2006        FY 2007         FY 2008         FY 2009    TOTAL AFP
                           ($ IN MILLIONS)                     AFP            AFP            AFP            AFP            AFP            AFP           AFP WITH        AFP WITH        BRIDGE    FOR ALL YEARS
                                                                                                                                                   SUPPLEMENTAL    SUPPLEMENTAL    SUPPLEMENTAL
                                                                                                                                                                                                                                        APPENDICES




                                                                                                                                                                                       AFP
                          DEPARTMENT OF                  $0             $13            $176           $404           $1,892         $2,248         $7,903          $3,426          $2,456         $18,519
                          DEFENSE ( DOD)
                          AFSA DRAWDOWN      DOD         $0             $2             $158           $135           $233           $17            $0                                             $545
                          ASFF               D OD        $0             $0             $0             $0             $995           $1,908         $7,406          $2,750          $2,000         $15,060
                          CERP               D OD        $0             $0             $0             $40            $136           $215           $206            $486            $285           $1,368
                          DOD CN             D OD        $0             $0             $0             $72            $225           $108           $291            $190            $171           $1,056
                          DOD E&EE           D OD        $0             $2             $2             $0             $1             $0             $0              $0              $0             $5
                          DOD OHDACA         D OD        $0             $8             $16            $7             $5             $0             $0              $0              $0             $37
                          DOD OMA            D OD        $0             $0             $0             $0             $0             $0             $0              $0              $0             $0
                          DOD S&E            D OD        $0             $0             $0             $0             $8             $0             $0              $0              $0             $8
                          DOD T&E            D OD        $0             $0             $0             $150           $290           $0             $0              $0              $0             $440
                          STATE                          $46            $376           $321           $833           $1,338         $418           $524            $482            $285           $4,624
                          DEPARTMENT
                          ERMA               STATE       $8             $25            $0             $0             $0             $0             $0              $0              $0             $33
                          FMF                STATE       $0             $57            $191           $414           $397           $0             $0              $0              $0             $1,059
                          IMET               STATE       $0             $0             $0             $1             $1             $1             $1              $2              $1             $7
                          INCLE              STATE       $0             $66            $0             $220           $706           $233           $252            $308            $101           $1,885
                          IO&P               STATE       $3             $0             $0             $0             $0             $0             $0              $0              $0             $3
                          DC&P               OTHER       $0             $24            $23            $48            $130           $112           $179            $104            $89            $711
                          MRA                STATE       $33            $135           $62            $63            $47            $36            $54             $44             $50            $524
                          NADR-ATA           STATE       $0             $36            $26            $52            $23            $18            $20             $1              $4             $181
                          NADR-CTF           STATE       $0             $0             $0             $0             $0             $0             $1              $1              $1             $3
                          NADR-EXBS          STATE       $0             $0             $0             $0             $1             $0             $1              $1              $1             $4
                          NADR-HD            STATE       $3             $7             $8             $13            $14            $14            $14             $15             $20            $107
                          NADR-NDS           STATE       $0             $0             $0             $2             $0             $0             $0              $4              $0             $6
                          NADR-SALW          STATE       $0             $0             $0             $0             $3             $3             $2              $1              $3             $11
                          NADR/TIP           STATE       $0             $1             $0             $0             $0             $0             $1              $0              $1             $3
                          PKO                STATE       $0             $24            $10            $20            $16            $0             $0              $0              $2             $71
                          PRT ADVISORS       STATE       $0             $0             $0             $0             $0             $0             $0              $0              $6             $6
                                                                                                                                                                                                                  Office of the SIGAR
                             Table B-2 (continued)

                      Annual Funding Program Update by Agency Accounts–
                      Information in chart provided by the March 2009 SIGAR data call
                                                                                                                                                                                                               Office of the SIGAR




                         ACCOUNTS            AGENCY        FY 2001        FY 2002        FY 2003        FY 2004        FY 2005        FY 2006        FY 2007         FY 2008         FY 2009    TOTAL AFP
                       ($ IN MILLIONS)                      AFP            AFP            AFP            AFP            AFP            AFP           AFP WITH        AFP WITH        BRIDGE    FOR ALL YEARS
                                                                                                                                                SUPPLEMENTAL    SUPPLEMENTAL    SUPPLEMENTAL
                                                                                                                                                                                    AFP
                      IG FOR STATE -       STATE      $0             $0             $0             $0             $0             $0             $1              $2              $8             $11
                      USAID
                      USAID                                          $42            $501           $456           $1,181         $1,604         $786            $1,574          $1,835         $1,1301
                      COMMODITY            USAID      $0             $7             $1             $0             $0             $0             $0              $0              $0             $9
                      CREDIT CORP
                      CSH                             USAID          $0             $8             $50            $31            $38            $41             $101            $63            $57
                      DEVELOPMENT          USAID      $0             $18            $35            $152           $166           $188           $167            $149                           $875
                      ASSISTANCE
                      ESF                             USAID          $0             $105           $224           $900           $1,313         $485            $1,211          $1,400         $1,158
                      FSA                             USAID          $0             $0             $5             $5             $0             $0              $0              $0             $0
                      GHAI                            USAID          $0             $0             $0             $0             $0             $0              $0              $1             $0
                      IDA                             USAID          $13            $197           $85            $10            $4             $0              $0              $0             $0
                      OTI                             USAID          $0             $9             $10            $8             $2             $0              $0              $0             $0
                      P.L.-480 (TITLE      USAID      $29            $159           $43            $49            $59            $60            $60             $155            $65            $679
                      II)
                      USAID OE                        USAID          $0             $4             $4             $10            $23            $12             $20             $26            $20
                      USAID CAPITAL        USAID      $0             $0             $0             $17            $0             $0             $0              $0              $0             $17
                      INVESTMENT FUND
                      USAID OFDA           USAID      $0             $0             $0             $0             $0             $0             $16             $20             $0             $36
                      US                              $104           $48            $28            $39            $50            $57            $20             $21             $12            $379
                      AGRICULTURE
                      FOOD FOR             USDA       $0             $0             $9             $6             $10            $25            $0              $0              $0             $50
                      EDUCATION
                      FOOD FOR             USDA       $0             $0             $0             $9             $30            $23            $11             $21             $12            $105
                      PROGRESS
                      416B FOOD AID        USDA       $104           $48            $14            $15            $0             $0             $0              $0              $0             $181
                      P.L.-480 (TITLE I)   USDA       $0             $0             $5             $10            $10            $9             $9              $0              $0             $43
                      TREASURY                        $0             $1             $1             $1             $1             $0             $1              $0              $0             $5
                      TTA                             TREASURY       $0             $1             $1             $1             $1             $0              $1              $0             $0
                      OTHER                           $0             $1             $4             $4             $17            $24            $20             $41             $19            $128
                      AGENCIES
                      CDC MRE                         OTHER          $0             $1             $1             $0             $0             $0              $0
                      DEA CN                          DOJ            $0             $1             $3             $4             $17            $24             $20             $41            $19
                      TOTAL                           $193           $939           $985           $2,462         $4,902         $3,534         $10,043         $5,804          $4,073         $32,935
                                                                                                                                                                                                                                     APPENDICES




April 30, 2009 | 61
                                                                                                                                                                                                                    A
                                                                                                                                                                                                                                A
                                                  The status of appropriated funds is captured in the following chart. This includes every
                                                  1st level sub-allocation account used in the Afghanistan reconstruction effort since 2001.
                                  Table B-3




62 | Report to Congress
                          Status of Appropriated Funds by Agency Accounts– Information in chart provided by the March 2009 SIGAR data call
                                                                                                                                                                                                                                                 APPENDICES




                             ACCOUNTS        FY 2006 AFP   FY 2006 OBS        FY 2006        FY 2007    FY 2007 OBS        FY 2007   FY 2008 AFP   FY 2008 OBS        FY 2008   FY 2009 AFP   FY 2009 OBS        FY 2009
                           ($ IN MILLIONS)                                     DISBS         AFP WITH                       DISBS     WITH SUPPL                       DISBS     WITH SUPPL                       DISBS
                                                                                              SUPPL
                          DEPARTMENT OF      $2,231        $2,231        $2,059         $7,903          $7,903        $7,762         $3,426        $2,955        $2,611         $2,456        $179          $14
                          DEFENSE ( DOD)
                          ASFF                             $1,908        $1,908         $1,908          $7,406        $7,406         $7,406        $2,750        $2,466         $2,450        $2,000        $50
                          CERP               $215          $215          $43            $206            $206          $65            $486          $488          $161           $285          $129          $14
                          DOD CN             $108          $108          $108           $291            $291          $291           $190          $0            $0             $171          $0            $0
                          STATE              $418          $73           $76            $524            $84           $76            $482          $72           $58            $285          $66           $1
                          DEPARTMENT
                          IMET               $1            $1            $1             $1              $1            $1             $2            $2            $1             $1            $1            $0
                          INCLE              $233          $0            $0             $252            $0            $0             $308          $0            $0             $101          $0            $0
                          MRA                $36           $36           $40            $54             $54           $48            $44           $44           $38            $50           $22           $0
                          DC&P               $112          $0            $0             $179            $0            $0             $104          $0            $0             $89           $0            $0
                          NADR-ATA           $18           $19           $18            $20             $13           $13            $1            $6            $6             $4            $32           $0
                          NADR-CTF           $0            $0            $0             $1              $1            $0             $1            $0            $0             $1            $0            $0
                          NADR-EXBS          $0            $0            $0             $1              $1            $1             $1            $1            $0             $1            $0            $0
                          NADR-HD            $14           $14           $14            $14             $14           $12            $15           $15           $11            $20           $6            $1
                          NADR-SALW          $3            $3            $3             $2              $2            $1             $4            $4            $1             $3            $0            $0
                          NADR/TIP           $0            $0            $0             $1              $0            $0             $1            $0            $0             $1            $0            $0
                          NADR-GTR           $0            $0            $0             $0              $0            $0             $0            $0            $0             $2            $0            $0
                          PRT ADVISORS       $0            $0            $0             $0              $0            $0             $0            $0            $0             $6            $6            $0
                          IG FOR STATE -     $0            $0            $0             $1              $0            $0             $2            $0            $0             $8            $0            $0
                          USAID
                          USAID              $786          $774          $672           $1,574          $1,459        $970           $1,835        $1,116        $536           $1,301        $74           $70
                          CSH                $41           $38           $27            $101            $87           $51            $63           $37           $7             $57           $0            $0
                          DEVELOPMENT        $188          $183          $141           $167            $152          $113           $149          $76           $19                          $0            $0
                          ASSISTANCE
                          ESF                $485          $483          $434           $1,211          $1,125        $723           $1,400        $793          $312           $1,158        $0            $0
                          GHAI               $0            $0            $0             $0              $0            $0             $1                                                       $0            $0
                          P.L.-480 (TITLE    $60           $60           $60            $60             $60           $60            $155          $155          $155           $65           $65           $65
                          II)
                                                                                                                                                                                                                           Office of the SIGAR
                              Table B-3 (continued)
                                                                                                                                                                                                  Office of the SIGAR




                      Status of Appropriated Funds by Agency Accounts– Information in chart provided by the March 2009 SIGAR data call


                      ACCOUNTS                      FY 2006 AFP   FY 2006 OBS   FY 2006   FY 2007 AFP   FY 2007 OBS   FY 2007   FY 2008 AFP   FY 2008 OBS   FY 2008   FY 2009 AFP   FY 2009 OBS
                      ($ IN MILLIONS)                                           DISBS     WITH
                                                                                             SUPPL                    DISBS     WITH
                                                                                                                                   SUPPL                    DISBS     WITH
                                                                                                                                                                         SUPPL
                      EMERSON TRUST        $0       $0            $0            $0        $0            $0            $22       $22           $22                     $0            $0
                      FUND
                      USAID OE                      $12           $10           $10       $20           $19           $19       $26           $25           $20       $20           $9
                      USAID OFDA           $0       $0            $0            $16       $16           $4            $20       $8            $1                      $0            $0
                      US                   $57      $48           $48           $20       $9            $9            $21       $21           $21           $12       $12           $0
                      AGRICULTURE
                      FOOD FOR             $25      $25           $25           $0        $0            $0            $0        $0            $0            $0        $0            $0
                      EDUCATION
                      FOOD FOR             $23      $23           $23           $11       $9            $9            $21       $21           $21           $12       $12           $0
                      PROGRESS
                      416B FOOD AID        $0       $0            $0            $0        $0            $0            $0        $0            $0            $0        $0            $0
                      P.L.-480 (TITLE I)   $9       $0            $0            $9        $0            $0            $0        $0            $0            $0        $0            $0
                      TREASURY             $0       $0            $0            $1        $0            $0            $0        $0            $0            $0        $0            $0
                      TTA                           $0            $0            $0        $1            $0            $0        $0            $0            $0        $0            $0
                      OTHER                $24      $21           $21           $20       $21           $14           $41       $23           $15           $19       $3            $1
                      AGENCIES
                      DEA CN                        $24           $21           $21       $20           $21           $14       $41           $23           $15       $19           $3
                      TOTAL                $3,534   $3,165        $2,893        $10,043   $9,477        $8,832        $5,804    $4,186        $3,240        $4,073    $334          $86
                                                                                                                                                                                                                        APPENDICES




April 30, 2009 | 63
                                                                                                                                                                                                       A
 A       APPENDICES
                                                                                                                       Office of the SIGAR




          APPENDIX C:
          SIGAR PLANNED AND ONGOING AUDITS


                                               Planned Audits                                   Estimated Start Date
                    Review of U.S. and international efforts to address and build
                    Afghanistan’s capacity to address corruption within various Ministries.
                    Objective: For select Afghan Ministries, assess their capability
                                                                                                      May 2009
                    to provide proper oversight to combat corruption, identify the
                    weaknesses, and determine U.S. or international community efforts
                    to address the capacity at select Ministries to address corruption.
                    Review of Security Detail Contract (contract to be identified).
                    Objective: To identify the requirements and provisions of the security
                    contract; costs and funding sources of the contract and task orders;              July 2009
                    and management oversight by the contracting agency to provide
                    proper oversight of contractor’s cost and performance.
                    Status of Reconstruction Funding for Afghanistan (U.S. and other
                    donor funding). Objective: Identify the sources and uses of funds,
                                                                                                      July 2009
                    by appropriation account and reconstruction sectors that have been
                    allocated, obligated, and expended for reconstruction.
                    Review of transportation modes and procedures for the reliable
                    delivery of reconstruction goods and supplies, including controls and
                    accountability. This is a possible joint review with both SIGAR and
                    DoD-IG participating. Objective: Identify controls and accountability            August 2009
                    in place for the transit of reconstruction goods and supplies
                    from ports of entry to destinations in Afghanistan and determine
                    effectiveness of contracts for transportation services.


                                       Table C-1– Information in chart obtained from the March 2009 SIGAR data call




64 | Report to Congress
Office of the SIGAR
                                                                                                                      APPENDICES
                                                                                                                                        A
                                  Ongoing Audits                                       Estimated Date of Completion
  Review of management information systems available to reconstruction
  decision-makers in Afghanistan (SIGAR-001) Objective: To identify how
  information management information systems and being used to track and
  report on reconstruction efforts in Afghanistan. Work will identify the systems,                May 2009
  determine the extent they are integrated, and determine the responsibilities
  of U.S. government agencies to ensure consistent, accurate, and complete
  data.
  Review of agencies’ management oversight, procedures, and practices
  for reconstruction funds and projects (SIGAR-002). Objective: To conduct
  a broad assessment of how agencies are managing the reconstruction
                                                                                              September 2009
  program. Work will include an examination of controls and accountability over
  funding flows, project development, project management organizations and
  staffing levels, performance metrics, and nature of funded activities.
  Review of contractor performance and agency oversight of U.S. government
  contracts in Afghanistan with Louis Berger Group (SIGAR-003). Objective:
  Describe the number and volume of contracts that U.S. agencies have with                      August 2009
  the Louis Berger Group and assess the agencies oversight of the contractor
  and contractor performance, to include existing audit coverage and results.
  Review of U.S. and international donor programs to assist Afghanistan’s
  energy sector (SIGAR-004). Objective: Conduct an overall assessment
  of U.S. and international programs to rebuild Afghanistan’s energy sector.
  Work will: 1. Identify U.S. and international goals for reconstruction and
  sustainment of Afghanistan’s energy sector. 2. Determine what performance
  metrics are used to determine if project milestones and outcomes are                        September 2009
  adequately tracked. 3. Assess progress and results of energy sector
  reconstruction efforts against the Afghanistan National Development Strategy
  and other criteria. 4. Assess coordination between U.S. and international
  agencies in energy sector reconstruction. 5. Assess Afghan participation in
  decisions and implementation of reconstruction programs.
  Review of the controls and accountability for Commander’s Emergency
  Response Program (CERP) (SIGAR-005). Objective: Review the
  management controls and accountability of the CERP funds for
                                                                                              September 2009
  Afghanistan. Work will examine controls and procedures in place to ensure
  the accountability of CERP funds and use of CERP funds in relation to
  authorization and intentions outlined in program objectives and mission
  strategies.
  Review of US assistance for the preparation and conduct of presidential
  elections in Afghanistan (SIGAR-006). Objectives: 1) Identify elections
  assistance funded by the United States and other donors, as well as the
  amount of and extent of donor coordination, for the preparation of the
                                                                                                  July 2009
  upcoming elections in August 2009; 2) Assess the effectiveness of the
                                                                                                 First Report
  preparation for elections overall, including such areas as voter registration,
  voter education, polling center security, ballot box integrity, and vote counting
                                                                                              September 2009
  procedures; and 3) Identify strengths/weaknesses of the election process,
                                                                                               Second Report
  after the election, and lessons learned for future elections. This review will
  produce two reports: one before the elections that will focus on preparation
  and coordination, and a second report after the elections take place, to focus
  on the conduct of the elections.

                                 Table C-2– Information in chart obtained from the March 2009 SIGAR data call

                                                                                                                          April 30, 2009 | 65
 A       APPENDICES
                                                                                                                                    Office of the SIGAR




          APPENDIX D:
          SIGAR PLANNED INSPECTIONS

                                          Planned Inpections                                                   Timeframe
           Quality Control inspections of major transportation infrastructure projects that
           have made use of U.S. funds and are central to the success of the larger
                                                                                                     Initial inspections to commence in
           Afghan National Development Strategy (ANDS) Transport Pillar priorities to
                                                                                                    May 2009 – Inspections of various
           include road rehabilitation, improvement and maintenance programs (Ring
                                                                                                  infrastructure projects will continue on
           Roads/Regional Highways). Objective: Conduct inspections to determine a)
                                                                                                 a systematic basis with several capping
           quality of construction, b) modes of sustainability, c) accountability of resources
                                                                                                    reports made over next 12 months.
           in order to ensure conformity with contract specifications and compliance with
           established and accepted technical construction methods and procedures.
           Quality control inspections of major health care facilities that have made use
           of U.S. funds and are central to the success of the larger Afghan National
           Development Strategy (ANDS) Health Pillar priorities to include hospitals,
                                                                                                     Initial inspections to commence in
           regional and local health clinics, and those facilities specifically dedicated to
                                                                                                    May 2009 – Inspections of various
           improving the health and care of women and children. Objective: Conduct
                                                                                                  infrastructure projects will continue on
           inspections to determine a) quality of construction, b) modes of sustainability,
                                                                                                 a systematic basis with several capping
           c) accountability of resources, and d) if the facilities inspected are being used
                                                                                                    reports made over next 12 months.
           as intended in order to ensure conformity with contract specifications and
           compliance with established and accepted technical construction methods and
           procedures.
           Quality control inspections of energy related facilities that have made use
           of U.S. funds and are central to the success of the larger Afghan National
           Development Strategy (ANDS) Energy Pillar priorities to include power plants
                                                                                                    Initial inspections to commence in
           (fossil fuel and hydro generated), electrical distribution networks, and facilities
                                                                                                    May 2009 – Inspections of various
           that provide power generation to isolated localities.. Objective: Conduct
                                                                                                  infrastructure projects will continue on
           inspections to determine a) quality of construction, b) modes of sustainability,
                                                                                                 a systematic basis with several capping
           c) accountability of resources, and d) if the facilities inspected are being used
                                                                                                    reports made over next 12 months
           as intended in order to ensure conformity with contract specifications and
           compliance with established and accepted technical construction methods and
           procedures.

                                                                         Table D-1




                                          Ongoing Inspections                                              Completion Date
             Onsite inspection of US funded Agriculture Projects within RC-East.
             Objective: Conduct on-site visits to selected agri-business related projects in
                                                                                                               May 2009
             RC East making use of U.S. funds in order to determine if inspected projects
             can be sustained.

                                                                         Table D-2




66 | Report to Congress
Office of the SIGAR
                                        APPENDICES
                                                          A


         APPENDIX E:
         HOTLINE POSTERS




                           Figure E-1




                                            April 30, 2009 | 67
 A       APPENDICES
                                                        Office of the SIGAR




                          Pashtu Version




                                           Figure E-2




68 | Report to Congress
Office of the SIGAR
                                                  APPENDICES
                                                                    A




                      Dari Version




                                     Figure E-3




                                                      April 30, 2009 | 69
 A       APPENDICES
                                                                                                     Office of the SIGAR




          APPENDIX F:
          ACRONYMS

                          AFP          ANNUAL FUNDING PROGRAM
                          AFSA         AFGHANISTAN FREEDOM SUPPORT ACT
                          AIG AUDITS   ASSISTANT INSPECTOR GENERAL FOR AUDITS
                          ANA          AFGHAN NATIONAL ARMY
                          ANDS         AFGHAN NATIONAL DEVELOPMENT STRATEGY
                          ANP          AFGHAN NATIONAL POLICE
                          ANSF         AFGHAN NATIONAL SECURITY FORCES
                          ASFF         AFGHANISTAN SECURITY FORCES FUND
                          BAF          BAGRAM AIRFIELD
                          CDC MRE      CENTER FOR DISEASE CONTROL MINE RISK EDUCATION
                          CERP         COMMANDER’S EMERGENCY RESPONSE PROGRAM
                          CID          U.S. ARMY CRIMINAL INVESTIGATION COMMAND
                          CJTF-101     COMBINED JOINT TASK FORCE – 101
                          CSH          CHILD SURVIVAL AND HEALTH
                          CSTC – A     COMBINED SECURITY TRANSITION COMMAND – AFGHANISTAN
                          CTAG         COMBINED TRAINERS ADVISORY GROUP
                          DCIS         DEFENSE CRIMINAL INVESTIGATIVE SERVICE
                          DC&P         DISEASE CONTROL AND PREVENTION
                          DEA          DRUG ENFORCEMENT ADMINISTRATION
                          DEA CN       DRUG ENFORCEMENT ADMINISTRATION COUNTERNARCOTICS
                          DOD          DEPARTMENT OF DEFENSE
                          DOD CN       DEPARTMENT OF DEFENSE COUNTERNARCOTICS
                          DOD E&EE     DEPARTMENT OF DEFENSE EMERGENCY AND EXTRAORDINARY EXPENSE
                          DOD IG       DEPARTMENT OF DEFENSE INSPECTOR GENERAL
                          DOD OHDACA   DEPARTMENT OF DEFENSE OVERSEAS DISASTER, HUMANITARIAN AND CIVIC AID
                          DOD OMA      DEPARTMENT OF DEFENSE OPERATIONS AND MAINTENANCE
                          DOD T&E      DEPARTMENT OF DEFENSE TRAIN AND EQUIP
                          ERMA         EMERGENCY REFUGEE AND MIGRATION ASSISTANCE
                          ESF          ECONOMIC SUPPORT FUND
                          FBI          FEDERAL BUREAU OF INVESTIGATION
                          FDD          FOCUSED DISTRICT DEVELOPMENT
                          FMF          FOREIGN MILITARY FINANCING
                          FOB          FORWARD OPERATING BASE




70 | Report to Congress
Office of the SIGAR
                                                                                            APPENDICES
                                                                                                                        A


                      FRAGO         FRAGMENTARY ORDER
                      FSA           FREEDOM SUPPORT ACT
                      FY            FISCAL YEAR
                      GAO           GOVERNMENT ACCOUNTABILITY OFFICE
                      GDP           GROSS DOMESTIC PRODUCT
                      GHAI          GREATER HORN OF AFRICA INITIATIVE
                      GIROA         GOVERNMENT OF THE ISLAMIC REPUBLIC OF AFGHANISTAN
                      ICCTF         INTERNATIONAL CONTRACT CORRUPTION TASK FORCE
                      IDA           INTERNATIONAL DISASTER ASSISTANCE
                      IEC           INDEPENDENT ELECTION COMMITTEE
                      IG            INSPECTOR GENERAL
                      IMET          INTERNATIONAL MILITARY AND EDUCATIONAL TRAINING
                      IMF           INTERNATIONAL MONETARY FUND
                      INCLE         INTERNATIONAL NARCOTICS CONTROL AND LAW ENFORCEMENT
                      IO&P          INTERNATIONAL ORGANIZATIONS AND PROGRAMS
                      ISAF          INTERNATIONAL SECURITY ASSISTANCE FORCE
                      JCMB          JOINT COORDINATION MONITORING BOARD
                      KAF           KANDAHAR AIRFIELD
                      MOA           MEMORANDUM OF AGREEMENT
                      MOI           AFGHAN MINISTRY OF INTERIOR
                      MOWA          MINISTRY OF WOMEN’S AFFAIRS
                      MRA           MIGRATION AND REFUGEE ASSISTANCE
                      MRAP          MINE RESISTANT AMBUSH PROTECTED
                                    NON-PROLIFERATION, ANTI-TERRORISM, DEMINING, AND RELATED PROGRAMS –
                      NADR – ATA
                                    ANTI-TERRORISM ASSISTANCE
                                    NON-PROLIFERATION, ANTI-TERRORISM, DEMINING, AND RELATED PROGRAMS –
                      NADR – CTF
                                    COUNTERTERRORISM FINANCE
                                    NON-PROLIFERATION, ANTI-TERRORISM, DEMINING, AND RELATED PROGRAMS –
                      NADR – EXBS
                                    EXPORT AND BORDER SECURITY
                                    NON-PROLIFERATION, ANTI-TERRORISM, DEMINING, AND RELATED PROGRAMS –
                      NADR – HD
                                    HUMANITARIAN DEMINING
                                    NON-PROLIFERATION, ANTI-TERRORISM, DEMINING, AND RELATED PROGRAMS –
                      NADR – NDS
                                    NON-PROLIFERATION AND DISARMAMENT
                                    NON-PROLIFERATION, ANTI-TERRORISM, DEMINING, AND RELATED PROGRAMS –
                      NADR – SALW
                                    SMALL ARMS LIGHT WEAPONS
                                    NON-PROLIFERATION, ANTI-TERRORISM, DEMINING, AND RELATED PROGRAMS –
                      NADR – TIP
                                    TERRORIST INTERDICTION PROGRAM
                      NATO          NORTH ATLANTIC TREATY ORGANIZATION




                                                                                                          April 30, 2009 | 71
 A       APPENDICES
                                                                                                 Office of the SIGAR




                    NDAA        NATIONAL DEFENSE APPROPRIATIONS ACT
                    OEF         OPERATION ENDURING FREEDOM
                    OHDACA      OVERSEAS HUMANITARIAN DISASTER AND CIVIC AID
                    OIG         OFFICE OF THE INSPECTOR GENERAL
                    OSI         U.S. AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS
                    OTI         OFFICE OF TRANSITION INITIATIVES
                    PKO         PEACEKEEPING OPERATIONS
                    PRT         PROVINCIAL RECONSTRUCTION TEAM
                    QIP         QUICK IMPACT PROJECTS
                    SIGAR       SPECIAL INSPECTOR FOR AFGHANISTAN RECONSTRUCTION
                    STATE       DEPARTMENT OF STATE
                    SIGIR       SPECIAL INSPECTOR GENERAL FOR IRAQ RECONSTRUCTION
                    SWA/JPG     SOUTHWEST ASIA JOINT PLANNING GROUP
                    TTA         TREASURY TECHNICAL ASSISTANCE
                    UN          UNITED NATIONS
                    UNDP        UNITED NATIONS DEVELOPMENT PROGRAM
                    USACE       UNITED STATES ARMY CORPS OF ENGINEERS
                    USAID       UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT
                    USAID OE    UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT OPERATING EXPENSE
                    USASAC      U.S. ARMY SECURITY ASSISTANCE COMMAND
                    USDA        UNITED STATES DEPARTMENT OF AGRICULTURE
                    USFOR – A   UNITED STATES FORCES – AFGHANISTAN




72 | Report to Congress
Office of the SIGAR
                                                                                                                       APPENDICES
                                                                                                                                           A
         APPENDIX G:
         ENDNOTES

              i
                      Chairmen’s Statement of the International Conference on Afghanistan, The Hague, March 31, 2009
              ii
                      Prepared Remarks of President Barack Obama, “A New Strategy for Afghanistan and Pakistan,” March 27, 2009
              iii
                      Prepared Remarks of President Barack Obama, “A New Strategy for Afghanistan and Pakistan,” March 27, 2009
              iv
                     Text of Letter from the President to the Speaker of the House of Representatives, April 9, 2009
              v
                      Prepared Remarks of President Barack Obama, “A New Strategy for Afghanistan and Pakistan,” March 27, 2009
              vi
                      Prepared Remarks of President Barack Obama, “A New Strategy for Afghanistan and Pakistan,” March 27, 2009
              vii
                      Chairmen’s Statement of the International Conference on Afghanistan, The Hague, March 31, 2009
              viii
                      Chairmen’s Statement of the International Conference on Afghanistan, The Hague, March 31, 2009
              ix
                      Chairmen’s Statement of the International Conference on Afghanistan, The Hague, March 31, 2009
              x
                      Islamic Republic of Afghanistan, Independent Election Commission Secretariat, Press Release on Election Timeline,
                      March 19, 2009; www. iec.org.af
              xi
                     Secretary of State, Hillary Rodham Clinton, “Remarks at the International Conference on Afghanistan,”
                     March 31, 2009
              xii
                      P.L. 110-181, 2008 National Defense Authorization Act
              xiii
                      CSCT-A Mission, March 15, 2009: http://www.cstc-a.com/mission/CSTC-AFactSheet.html
              [i]
                     The United States Plan for Sustaining the Afghanistan National Security Forces, June 2008 Report to Congress in
                      accordance with the 2008 National Defense Authorization Act (Section 1231, Public Law 110-181),
              xiv
                      DoD Financial Management Regulation Volume 12, Chapter 27 www.defenselink.mil/comptroller/fmr/12/12_27.pdf
              xv
                      http://www.state.gov/r/pa/ei/bgn/5380.htm
              xvixvi
                        United States Department of Agriculture, Foreign Agricultural Service, Afghanistan country
                      page http://www.fas.usda.gov/country/Afghanistan/afghanistan.asp
              xvii
                      SIGAR analysis of data from the Departments of Defense, State, and the U.S. Agency for International
                      Development.
              xviii
                      The Afghanistan funding information in this section has been provided during the SIGAR data call by individual
                      fund managers from DoS,( Bureau of South and Central Asian Affairs, Bureau of International Narcotics and
                      Law Enforcement Affairs, Ofﬁce of Foreign Affairs, IG), USAID, USDA IG, DoD, DoD IG, Treasury, U.S. Army
                      Corps of Engineers, Department of Agriculture, Ofﬁce of the Secretary of Defense Comptroller, Drug Enforcement
                      Administration, DSCA, and C-STCA.
              xix
                      The Afghanistan Interagency Bi-monthly Fund Status Review Group is chaired by the National Security Council and
                      consists of fund managers from DoS,( Bureau of South and Central Asian Affairs, Bureau of International Narcotics
                      and Law Enforcement Affairs, Ofﬁce of Foreign Affairs, IG), USAID, USAID IG, DoD, DoD IG, U.S. Treasury,
                      U.S. Army Corps of Engineers, the Department of Agriculture, the Ofﬁce of the Secretary of Defense Comptroller,
                      and the Drug Enforcement Administration.


                                                                                                                             April 30, 2009 | 73
